Jg'IJ jl
tDJje Supreme Court of ©l|to1
APR 13 2821
CLERK OF COURT
SUPREME COURT OF OHIO
Susan Lloyd

Case No. 2021-0145

v.

ENTRY

Joshua Thomsbery, et al.
Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.CtPrac.R. 7.08(BX4).
(Portage County Court of Appeals; No. 19-P-0108)

MJXkJLXA.

J

Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at http://vmw.supremecourtohio.gov/ROD/docs/

tUljc Supreme Court of (©ijtn
APR 13 m
CLERK OF COURT
SUPREME COURT OF OHIO
Susan Lloyd

I

Case No. 2021-0146

v.

ENTRY

Joshua Thomsbery, et al.
Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.CtPrac.R. 7.08(B)(4).
(Portage County Court of Appeals; No. 2019-P-0080)

K0JUXAA4.

4-4

J

Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at http://www.supremecourtohio.gov/ROD/docs/

I? (Ill

tEljc Supreme (Kmtrt of (Pljto" ^
JUH-8 2021
CLERK OF COURT
SUPREME COURT OF OHIO
Susan Lloyd

Case No. 2021-0145

v.
RECONSIDERATION ENTRY
Joshua Thomsbery, et al.
Portage County
It is ordered by the court that the amended motion for reconsideration in this case
is denied.
(Portage County Court of Appeals; No. 19-P-0108)

mjxXjlx

J

Maureen O’Connor
ChiefJustice

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

tEljc Supreme GLavtxt of (DIfto
JUN-8 mi
c.J?kEfiK 0F CGURT

SUPREME COURT OF OHIO

Susan Lloyd

Case No. 2021-0146

v.
Joshua Thomsbery, et al.

RECONSIDERATION ENTRY
Portage County

It is ordered by the court that the amended motion for reconsideration in this case
is denied.
(Portage County Court of Appeals; No. 2019-P-0080)

Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at http://www.supreEnecourt.ohio.gov/ROD/docs/

STATE OF OHIO
COUNTY OF PORTAGE

)

IN THE COURT OF APPEALS

)SS.
)

ELEVENTH DISTRICT
JUDGMENT ENTRY

SUSAN LLOYD,
Plaintiff-Appellant,

CASE NO. 2019-P-0080

-vsFILED
COURT OF APPEALS

JOSHUA THORNSBERY, et al..

JAN 29 2021

Defendants-Appellees.

JU.FANKHAUSER.Ctok
HIHTA6E COUNTY OH
of
this court, appellant’s
For the reasons stated in the opinion
assignments of error are without merit. It is the judgment and order of this court
that the judgments of the Portage County Court of Common Pleas are affirmed.
Costs to be taxed against appellant.
Appellee, Amanda Shuherk’s, motion for dismissal is denied.

"7

rik

/•

/
/•
/:
i

JUE/GE CYNTHIA WESTCOTT RICE
MARY JANE TRAPP, P.J.,
TIMOTHY P. CANNON, J.,
concur.

IN THE COURT OF APPEALS
ELEVENTH APPELLATE DISTRICT
PORTAGE COUNTY, OHIO
SUSAN LLOYD,

OPINION

■“fisasagp

Plaintiff-Appellant,
CASE NO. 2019-P-0080

- vsJOSHUA THORNSBERY, et ah.
Defendants-Appellees.

Civil Appeal from the Portage County Court of Common Pleas, Case No 2016 CV
00230.
Judgment: Affirmed.

Susan Uoyd, pro se, P.O. Box 2577, Streetsboro, OH 44241 (Plaintiff-Appellant).
Mark J. Hanna, P.O. Box 301, Kent, OH 44240 (For Defendants-Appellees, C and N
Forestry, Cindy Simcox, and Connor Zanoskar).
Jason A. Whitacre, Flynn, Keith & Flynn, 214 South Water Street, Kent, OH 44240 (For
Defendants-Appellees, Apryle Davis, Darrel Huber, Eric Siwierka, Jamie Newman,
Jason Ortman, Joshua Thomsbery, Nick Balas, Phillip Siwierka, Shelly Ortman, Staci
Dalton Liddle, Theresa Giaimo, and Tim Welms).
Lindsay N. Molnar, Perduk & Associates Co., LPA, 3603 Darrow Road, Stow, OH 44224
(For Defendants-Appellees, Michael Szabo and Sandi Szabo).
Craig G. Pelini, Pelini, Campbell & Williams, LLC, 8040 Cleveland Avenue, NW, Suite
400, North Canton, OH 44720 (For Defendants-Appellees, Justin Smialek and Pam
Wilms).
Daniel Bennett, pro se, 119 Ebersole Road, Fredericktown, OH 43019 (DefendantAppellee).
Harley Angel a.k.a. Robin White, pro se, 10254 Brosius Road, Garrettsville, OH 44231
(Defendant-Appellee).

Amanda Shuherk, pro se, 08577 County Road C, Bryan, OH
Appellee).

43506 (Defendant-

David Trussel, pro se, 6412 Linda Lane, Ravenna, OH 44266 (Defendant-Appellee).
Frank Chtad; pro se, 10122 William Henry Drive, Streetsboro, OH 44241 (DefendantAppellee).
JairdKendzior, prose, 1094MonetaAvenue, Aurora, OH 44202(Defendant-Appellee).
Marty Kendzior, pro se, 6576 Munsell Road, Howell, Ml 48843 (Defendant-Appellee).
Rebecca Schaffer, pro se, 6412 Linda Lane, Ravenna, OH 44266 (Defendant-Appellee).
Sebastian Dzialuk, pro se, 7085 Seven Hills Boulevard, Seven Hills, OH
(Defendant-Appellee).

44131

Sue Whitlam, pro se, 466 Brentwood Avenue, Kent, OH 44240 (Defendant-Appellee).
William Taylor, pro se, 2122 Gates Avenue, Streetsboro, OH
Appellee).

44241 (Defendant-

CYNTHIA WESTCOTT RICE, J.
fl[l)

Appellant, Susan Lloyd, pro se, appeals six Judgment Entries or Orders of

the Portage County Court of Common Pleas, which generally denied Ms. Lloyd’s post­
judgment motions and granted various defendant-appellees’ motions. For the reasons
discussed herein, the judgments are affirmed.
fl[2}

In January 2016, Ms. Lloyd purchased a house on Dorothy Drive in

Streetsboro, Ohio.

There was immediate conflict between her and her next-door

neighbor, Joshua Thomsbery, the primary appellee herein. The dispute began when Mr.
Thomsbery’s dogs relieved themselves on her property.

It escalated when Mr.

Thomsbery removed trees Ms. Lloyd believes were located, at least partially, on her
property. The conflict was further aggravated by Mr. Thomsbery and his neighbors

/Sd-

holding large bonfires and smoking, which

aggravated Ms. Lloyd, who uses oxygen,
Eventually, Ms. Lloyd built a fence between the two properties, put
up security cameras,
and posted “no smoking, oxygen in use” signs. Several times, Ms. Lloyd called the
authorities on Mr. Thomsbery, once resulting in a citation for the illegal burning of
untreated wood. Mr. Thomsbery, in return, posted his own security cameras, continued
to hold bonfires in his backyard, and he and his friends, the other defendant-appellees
herein, posted about Mr. Thornsbery’s “neighbor* pejoratively on Facebook.
ffl3}

Ms. Lloyd filed a complaint against Mr. Thomsbery and his friends in March

2016. Several motions for a more definite statement were granted

and, ultimately, Ms.

Lloyd’s fourth amended complaint alleged 101 claims for relief against 26 defendants.
Numerous parties were dismissed at various times throughout the underlying
proceedings. The jury found in favor of certain defendants on 11 claims for relief; the trial
court granted directed verdict for 11 additional claims for relief in favor of certain
defendants. The remaining claims for relief appear to have not been pursued at trial and
no objection was made to their exclusion during trial, nor on appeal. After trial, Ms. Lloyd’s
counsel, Attorney Hull, was permitted to withdraw his representation. Ms. Lloyd filed the
instant appeal, pro se, alleging thirteen assignments of error.
(W

Additionally, shortly after trial, several defendant-appellees filed motions for

sanctions against Ms. Lloyd and Attorney Hull. The motion for sanctions against Attorney
Hull was dropped but the motion for sanctions against Ms. Lloyd were ultimately granted.
Ms. Lloyd appealed this decision in appellate case no. 2019-P-0108, also now before this
court.

X

fl[5}

For ease of disposition and clarity, we address certain assignments of error

out of order. Preliminarily, we note that Ms. Lloyd argues for the applicability of the
Federal Rules of Civil Procedure (FRCP) throughout her appeal.
filed her complaint in state court, the Ohio Rules of Civil P
FRCP.

Fed.R.Civ.P. 1 ('These rules

However, as Ms. Lloyd

rocedure are applicable, not the

govern the procedure in all civil actions and

proceedings in the United States district courts * * V (Emphasis added.) However, as
the Ohio Rules of Civil Procedure are often closely analogous to the FRCP, and in the
interest of justice, alleged violations of the FRCP will be

construed as if alleged to be

violations of their Ohio counterparts.
{f6}

Except as noted, each of Ms. Lloyd’s assignments of error are reviewed for

an abuse of discretion. The term “abuse of discretion" is one of art, connoting judgment
exercised by a court which neither comports with reason, nor the record. State v.
Ferranto, 112 Ohio St. 667,676-678 (1926). An abuse of discretion may be found when
the trial court "applies the wrong legal standard, misapplies the correct legal standard, or
relies on clearly erroneous findings of fact." State v. Figueroa, 11th Dist. Ashtabula No.
2016-A-0034, 2018-Ohio-1453,1f26, citing Thomas v. Cleveland, 176 Ohio App.3d 401,
2008-0hio-1720,1J15 (8th Dist.).
{tf7}

Ms. Lloyd’s first assignment of error states:

{1J8}

The trial court committed an abuse of discretion and reversible error
occurred by assigning Thomas Pokomy to case 2016CV00230
against Guidelines for Assignment of Judges for Supreme Court of
Ohio Rules 2.2B, 2.3, 2.3A, 2.3B, 2.3C, 5.1A, 5.3A, Rules of
Superintendence Rule[ ]36.019 and 28USC453 and section 5 of
article VI of the US Constitution, [sic]

A

{119}

Ms. Lloyd alleges error in the assignment of Judge Pokomy to hear her case

alter Judge Doherty recused herself, citing noncompliance with the Supreme Court of
Ohio’s Guidelines for Assignments of Judges and the Rules of Superintendence.
{flO} Preliminarily, the Supreme Court of Ohio’s Guidelines for Assignments of
Judges have not been adopted as rules pursuant to Article IV, Section 5 of the Ohio
Constitution and are “not binding on Ohio courts." Forsyth v. Feinstein, 2d Dist.

Clark No.

99-CA-66, 2000 WL 192298, *3 (Feb.18, 2000); IP v. M.H., 9th Dist. Lorain No. CV
18CA011450, 2020-0hio-13, H12. “Although it may be the best practice to adhere to
these guidelines, a failure to do so is not reversible error." Id. Likewise, this court has
held that the Rules of Superintendence, "‘are not the equivalent of rules of procedure and
have no force equivalent to a statute. They are purely internal housekeeping rules which
are of concern to the judges of the several courts but create no rights in individual
defendants.’” Habo v. Khattab, 11th Dist. Portage No. 2012-P-0117, 2013-0hio-5809,
U84, quoting State v. Gettys, 49 Ohio App.2d 241, 243, (3d Dist.1976).
{Ifll} More importantly, Ms. Lloyd filed four affidavits of disqualification against
Judge Pokomy with the Supreme Court of Ohio. The Supreme Court denied each
affidavit, finding Judge Pokomy to be qualified, and ultimately warning Ms. Lloyd that
continued filings of affidavits for disqualification may result in sanctions against her.
Critically, this court lacks the jurisdiction to review the appointment of a visiting judge so
appointed by the Supreme Court of Ohio. See Nolan v. Nolan, 11 Ohio St.3d 1 (1984),
syllabus (“Absent extraordinary circumstances, such as an intervening decision by the
Supreme Court, an inferior court has no discretion to disregard the mandate of a
superior court in a prior appeal in the same case.”).

5s

Further, Ms. Lloyd blanketly asserts that Judge Pokomy has not taken an
oath of office, violating 28 U.S.C. 453. This statute, however, applies to “judges of the
United States,”that is, federal judges. Even if we were to apply R.C. 3.23, which provides
the oath of office required for Ohio judges, except for justices of the

supreme court,

nothing in the record demonstrates Judge Pokomy has not taken an oath of office.
{f!3} Finally, as to Ms. Lloyd's argument that the certificate of assignment was
not promptly entered into the docket, we note that this court has previously held that “even
though it may be better practice for courts to put a copy of the certificate of assignment in
each file handled by the visiting judge, failure to do so does not constitute reversible error.”
State v. Corradetti, 11th Dist. Lake No. 2001-L-092, 2002-Ohio-6577, fl12. Here, the
certificate of assignment was entered into the docket; the court’s failure to do so more
promptly, while not best practice, likewise does not result in reversible error.
{f!4} Ms. Lloyd's first assignment of error is without merit.
{f15} Ms. Lloyd’s second assignment of error states:
fl[16} The trial court committed reversible error and abuse of discretion by
allowing Hull to withdraw as Lloyd[’]s attorney in violation of local rule
20.04. [sic]
(1fl7) Ms. Lloyd argues that her counsel failed to abide by Portage County Court
of Common Pleas Local Rule 20.04 and thus her counsel should not have been permitted
to withdraw.
fl[18} Loc.R. 20.04, as effective during these proceedings1, stated:
flfl9} Application for leave to withdraw as trial attorney in a civil case shall
be made by written motion filed with the Clerk, with copies served
upon ail other trial attorneys in the case in accordance with these
1. The effective date of the Portage County Local Rules in effect at the time of these proceedings was
June 21,1993; they have since been updated effective February 1,2020, eliminating, inter alia, the
certified mailing requirement and opportunity for hearing.

Lx

6

rules and Civil Rule 5. The motion may be heard within ten (10) days
of filing by the Judge. Written notice of such application shall be given
to the client of the trial attorney seeking to withdraw, by certified mail
return receipt requested, stating the time when and before which
Judge such application will be made. If such application is granted
and the client does not appear at the hearing, the trial attorney if
permitted to withdraw, shall notify the client by certified mail, return
receipt requested, to secure a new trial attorney within such time as
may be designated by the Court. A copy of such notice, together with
the order authorizing withdrawal and the certified mail shall be filed
in the case with a copy provided to the assignment commissioner.
{f20} First, these Local Rules do not require a hearing; instead, “the motion may
be heard....” (Emphasis added.) Id Second, violations of Local Rules do not generally
constitute grounds for reversal. See Cart v. Fed Natl. Mtge. Assoc., 11th Dist. Ashtabula
No. 2011-A-0059, 2012-Ohio-2241, H49; Yoel v. Yoel, 11th Dist. Lake No. 2009-L-063,
2G12-Ohio-643, fl40; Allen v. Allen, 11th Dist. Trumbull No. 2009-T-0070,2010-Ohio-475,
H29-33. This conclusion is made all the more reasonable under these circumstances
because Ms. Lloyd admits that her attorney notified her of his intent to withdraw, albeit
via email. The purpose of Loc.R. 20.04, notice to the party, was clearly met as Ms. Lloyd
herself notes that she received the email.
{%2l} Furthermore, Attorney Hull represented Ms. Lloyd throughout most of these
proceedings and through the end of the trial. He was granted leave to withdraw on July
16,2019, after the Court granted a directed verdict to Nick Balas, Phillip Siwierka, Timothy
Welms, Eric Siwierfca, and Joshua Thornsbery, and after the jury returned a verdict in
favor of the remaining defendants, though before the court journalized the verdict. After
the court journalized the jury's verdict, Ms. Lloyd filed several post-judgment motions and
her appeal pro se. She does not argue any way in which she was disadvantaged by his
withdrawal. In fact, we note that throughout the proceedings, Ms. Lloyd frequently filed
motions with the court pro se, despite being represented by counsel.

3T7

{1122} Finally, insofar as Ms. Lloyd argues her Constitutional right to counsel was
violated, we note that the Sixth Amendment to the United States Constitution and Section
10, Article I, of the Ohio Constitution, to which she alludes, refers to the right of a criminal
defendant to be represented. Sixth Amendment to the United States Constitution (“in all
criminal prosecutions, the accused shall enjoy the right * * *

to have the assistance of

counsel for his defense") (emphasis added); Section 10, Article I, Ohio Constitution {"the
party accused shall be allowed to appear and defend in person and with counsel”)
(emphasis added). However, Ms. Lloyd brought a civil suit; in this case, she is a civil
plaintiff, not a criminal defendant. There is generally no right to have counsel appointed
in civil cases, with exceptions usually involving either involuntary psychiatric commitment
or parental custody, when the party is indigent. See Belknap v. Moss, 11th Dist. Portage
No. 2002-P-0128, 2005-0hio-1255, Tf15; Goldfuss v. Davidson, 79 Ohio St.3d 116, 126
(1997) (Cook, J., concurring in judgment only) ("Unlike a criminal defendant, a civil litigant
has no constitutional right to the effective assistance of counsel."). Ms. Lloyd hired
several attorneys during the course of her civil suit; she does not argue she is indigent
nor explain why after Attorney Hull*s withdrawal she could not hire new counsel. In this
case, Ms. Lloyd did not have a constitutional right to have counsel appointed to her.
(5(23} Accordingly, Ms. Lloyd’s second assignment of error is without merit.
fl|24} Ms. Lloyd’s thirteenth assignment of error states:
(1f25} Trial court committed reversible error and abuse of discretion by
refusing to disqualify Jason Whitacre, Scott Flynn and Flynn Keith
and Flynn (T.d.302, Paragraph 1) [sic]
fl[26} Under this assignment of error, Ms. Lloyd asserts that Attorney Jason
Whitacre, counsel for Mr. Thomsbery and several other defendants, had a conflict of
interest that disqualified him from representing his clients in this case. She does not

allege that she was in an attorney-client relationship with Mr. Whitacre or his fi
irm, Flynn
Keith & Flynn, but argues that an unsolicited
message she sent to Attorney Flynn advised
them of the “past legal issues” of Attorney Hanna,

counsel for other parties hereto, created

a conflict of interest.
{f27} Under Prof.Cond.R. 1.7, a lawyer may. be required to stop representing a
client if there is a substantial risk that the lawyer's ability to “consider,

recommend, or

carry out an appropriate court of action for that client will be materially limited by the
lawyer’s * * * own personal interests.” See also, Lytle v. Matthew, 8th Dist. Cuyahoga No.
104622, 2017-Ohio1447, 1J23. 'Typically, courts do not disqualify

an attorney on the

grounds of conflict of interest unless there is (or was) an attorney-client relationship
between the party seeking disqualification and the attorney the party seeks to disqualify.”
Morgan v. N. Coast Cable Co., 63 Ohio St.3d 156,159 (1992),
ffl28) Ms. Lloyd, on her own initiative, searched the public records to find another
case involving Attorney Hanna. In that case, Attorney Hanna was being evicted; she was
not a party to that case. Ms. Lloyd sent an email to Attorney Flynn, the attorney of record
for the evicting plaintiff. In her email, Ms. Lloyd disparaged Attorney Hanna and offered
negative testimony about his character, which incidentally was unnecessary and
irrelevant to the matter of eviction. Attorney Flynn replied, politely thanking her for the
email and indicating that he would review the public records available in this case. He
later provided an affidavit attesting he did not review the public record she referenced.
fl[29) Attorney Whitacre, though at the same firm as Attorney Flynn, attested that
he did not read Ms. Lloyd's email to Attorney Flynn. Moreover, Ms. Lloyd attached an
unredacted copy of her email to Attorney Flynn to her motion, which made it a matter of

3 9

public record, negating any argument that she intended

anything in that email to remain

confidential.
flPO} Ms. Lloyd did not seek representation from Attorney Flynn in any matter,
she did not meet with any attorney from that office, and Attorney Flynn did not offer her
legal advice. Her unsolicited email disparaging third parties does not create an attorneyclient relationship. Thus, the trial court did not

err in finding no conflict existed and

denying her motion for disqualification.
Accordingly, Ms. Lloyd’s thirteenth assignment of error is without merit.
{|32} Her tenth assignment of error states:
{f33} Trial court committed reversible error and an abuse of discretion by
not releasing audio of Lloyd[']s trial after Pokorny ordered it to be
released and Lloyd is entitled to audio violating Rule 11 of
Superintendence, Slagle V Rogers and the Sunshine LawsfT.d. 434)
{f34} On August 20, 2019, Ms. Lloyd filed a motion to release audiotape of the
June 17 to 21, 2019 trial; three days later she filed a second request. In each request,
she accuses the Portage County Court of Common Pleas and Judge Doherty's court
reporter of altering a previous transcript. On August 30, 2019, the court granted the
release of the audio. On October 31, 2019 several defendants filed a motion to vacate
the court's order granting release of the audio transcript, on the grounds that the transcript
likely contains audio for all parties that is protected by attorney-client privilege and the
attorney work-product doctrine, unless the audio transcript can be scrubbed of all
privileged discussions. On November 8, 2019 the court vacated its earlier order, finding
that the recording was “continuous and not limited to *on the record’ matters.’'
(1f35) On appeal, Ms. Lloyd argues (1) the court erred by denying that request
citing R.C. 149.43; (2) that the transcript is being provided at a cost in excess of that

u>°

permitted by Slagle v. Rogers, and; (3) that pursuant to R.C. 149.43(C)(1)

she is entitled

to $1,000 in damages for the delay in access to these public records. However, the
appropriate vehicle to allege a violation of R.C. 149.43 is set forth in Section (C)(1):
(TO If a person allegedly is aggrieved by the failure of a public office or
the person responsible for public records to promptly prepare a
public record and to make it available to the person for inspection in
accordance with division (B) of this section or by any other failure of
a public office or the person responsible for public records to comply
with an obligation in accordance with division (B) of this section the
person allegedly aggrieved may do only one of the following, and not
ff37) (a) File a complaint with the clerk of the court of claims or the clerk
of the court of common pleas under section 274375 of the Revised
Code;
{f38} (b) Commence a mandamus action to obtain a judgment that orders
the public office or the person responsible for the public record to
comply with division (B) of this section * * *.
flf39} Thus, insofar as Ms. Lloyd asserts a violation of R.C. 149.43, this appeal is
not the appropriate vehicle by which to bring her grievance. See also State ex ret. Slagle
v. Rogers, 103 Ohio St.3d 89, 2004-Ohio-4354, (reviewing the appellate court’s grant of
a writ of mandamus for an alleged violation of R.C. 149.43.) Furthermore, as stated under
Ms. Lloyd’s first assignment of error, the Rules of Superintendence do not create
individual rights.
{1f40} Accordingly, Ms. Lloyd’s tenth assignment of error is without merit.
{fU} Her third assignment of error states:
fl[42} The trial court committed reversible error and an abuse of discretion
by denying Lloyd default judgment in violation of FRCP 55a and
Local Rules 11.04 and 9.01 (T.d. 302, Paragraph 2))(T.D. 344) [sic]
fl[43} FRCP 55a states: “When a party against whom a judgment for affirmative
relief is sought has failed to plead or otherwise defend, and that failure is shown by

(j I

y

affidavit or otherwise, the clerk must enter the party's default,” As previously noted, the
Ohio Rules of Civil Procedure, not the Federal Rules of Civil Procedure, apply in this case.
Civ.R. 55 states in pertinent part:
W41 (A) Entry of judgment. When a party against whom a judgment for
affirmative relief is sought has failed to plead or otherwise defend as
provided by these rules, the party entitled to a judgment by default
shall apply in writing or orally to the court therefor * * *. If the party
against whom judgment by default is sought has appeared in the
action he (or, if appearing by representative, his representative)
shall be served with written notice of the application for judgment at
least seven days prior to the hearing on such application. * * *.
(f45} (B) Setting aside default judgment. If a judgment by default has been
entered, the court may set it aside in accordance with Rule 60(B).
/«[46} (C) Plaintiffs, counterclaimants, cross-claimants. The provisions of
this rule apply whether the party entitled to the judgment by default
is a plaintiff, a third-party plaintiff or a party who has pleaded a crossclaim or counterclaim. In all cases a judgment by default is subject
to the limitations of Rule 54(C).
{f47} Preliminarily, we note that contrary to Ms. Lloyd's argument, Loc.R. 9.01
and 11.04 are inapplicable to this assignment of error, and as discussed under her second
assignment of error, violations of Local Rules do not generally constitute grounds for
reversal.
fl[48} Further, Ms. Lloyd argues she was entitled to default judgment against all
defendants except Trussei and Schaffer because, she argues, the other defendants failed
to timely answer the complaint. Though Ms. Lloyd's fourth amended complaint contained
101 claims for relief against 26 defendants, most of the claims for relief and several
defendants were dismissed or granted directed verdict. Ultimately, the court provided the
jury instructions on twelve claims for relief against five defendants, to wit:
fl[49} Eric Siwierka » Claim of Nuisance
fl[50} Phillip Siwierka - Claim of Nuisance

(s'!

<f51> w nhrsb.ery 1 Claims of Nuisance, Trespass-Destruction of
EmotbnSmsTressn'
,0"
^ lntentional ,nfliction of
ffl52} intenf6' fZflab,° ' C'|ims of Defamation, Invasion of Privacy
, and
Intention Infliction of Emotional Distress
{1,53} Emo£a'!VD5res"sClaimS °f NUiSan0e and lnt6ntional ,nf,icti°" of
{1154} We limit our review under this assignment of error to the consideration of
only these defendants, as the dismissal or directed verdict for the remaining defendants
renders her argument under this assignment of error moot as to those defendants.
ffl55} “The granting of a default judgment * * * is a harsh remedy which should
only be imposed when “the actions of the defaulting party create

a presumption of

willfulness or bad faith. mn Sericola v, Johnson, 11th Dist. Trumbull No. 2015-T-0091,
2016-Ohio-1164, fl18, quoting Domadia v. Briggs, 11th Dist. Geauga No. 2008-G-2847,
2009-0hio-6510, H19. “[I]t is a fundamental tenet of judicial review in Ohio that courts
should decide cases on the merits.” DeHart v. Aetna Life Ins. Co., 69 Ohio St2d 189,
192(1982).
{f56} "It is well-settled that a trial court may permit the filing of an untimely answer
where the record contains sufficient evidence of excusable neglect." State of Ohio Dept,
of Dev. v. Matrix Centennial, L.L.C., 10th Dist. Franklin No. 14AP-47, 2014-Ohio-3251,
1126, citing State ex rel. Lindenschmidt v Bd. of Commrs. of Butler Cty., 72 Ohio St.3d
464, 466 (1995). “'The determination of whether neglect is excusable or inexcusable
must take into consideration all the surrounding facts and circumstances, and courts must
be mindful of the admonition that cases should be decided on their merits, where possible,
rather than procedural grounds.”' Sericola, supra, at 1J19, quoting Lindenschmidt, supra.

(f3

{|57} Ms. Lloyd filed her first complaint against Joshua Thomsbery March 16,
2016. He answered and filed a counterclaim on April 18,2016. She added Eric Siwierka
Phillip Siwierka, Michael Szabo, and Timothy Welms in an amended complaint on March
3,2017. The record reflects that Eric Siwierka was not successfully served immediately.
Michael Szabo filed a pro se motion to dismiss on March 15, 2017. That motion

was

denied. Though he did not file an answer within 14 days, he retained Attorney Hanna to
represent him. Attorney Hanna did not file a notice of appearance but began filing on
behalf of Michael Szabo in June 2017.

Attorney Hanna became hospitalized

and

incapacitated sometime before the filing of the motion for default judgment.
fl[58} Ms. Lloyd's first motion for default judgment filed through her counsel was
on June 3, 2019. It was denied the next day. Shortly thereafter, Eric Siwierka, Phillip
Siwierka, and Timothy Welms hired Attorney Whitacre, who was already representing
Joshua Thomsbery, to also represent them. Michael Szabo obtained representation from
Attorney Molnar, replacing Attorney Hanna. Attorney Molnar filed an answer to the fourth
amended complaint on behalf of Michael Szabo the same day she filed her notice of
appearance: June 13, 2019. Attorney Whitacre filed an answer on behalf of his clients
on June 17, 2019. This was not his first filing: he had filed several motions and briefs
since he filed his notice of appearance in April 2019. Thus, the record reflects that though
late, the relevant defendants did file an answer to Ms. Lloyd's fourth amended complaint.
{1159} We now consider whether the record contains sufficient evidence of
excusable neglect. By the time the notice of default had been filed in June 2019, the case
had been pending for three years and had gone through at least two failed mediations.
There had been several imperfect services against several defendants. The first three

/

s*

iterations of the complaint were so vague that three motions for a more definite statement
were granted. The initial judge voluntarily recused herself and the Supreme Court of Ohio
appointed a visiting, retired judge to preside over the case. The final, fourth amended
complaint was nearly 500 pages, plus nearly 300 pages of exhibits, and contained 101
claims for relief against 26 defendants. Considering that judgment on the merits is highly
preferable to the harsh granting of default judgment, and considering the lengthy,
voluminous, and convoluted procedural history, we find there was sufficient evidence in
the record to show excusable neglect in this case.
{f60} Moreover, Ms. Lloyd, through counsel, filed her first motion for default
judgment nearly a year after she filed her fourth amended complaint. She never moved
to strike any of the defendants' filings for untimeliness or because they were in default.
She instead continued to reply to the filings. By her responses, Ms. Lloyd may be deemed
to have recognized and accepted the untimely filings.
fl[61} In light of the foregoing, we find the trial court did not err in denying Ms.
Lloyd’s motions for default judgment. Accordingly, Ms. Lloyd’s third assignment of error
is without merit.
{f62} Ms. Lloyd's fourth assignment of error states:
The trial court committed reversible error and an abuse of discretion
by violating Rules of Superintendence 5D, 40 A3,[ ]30B.
flpM} Under her fourth assignment of error, Ms. Lloyd states the issue for review
as: “Did the trial court commit reversible error and abuse of discretion by violating the
Rules of Superintendence?” As we have stated above, the rules of superintendence do
not create individual rights as they are not the equivalent of rules of procedure and have
no force equivalent to a statute. They are purely internal housekeeping rules which are of

A

concern to the judges of the several courts. Thus, we answer her issue for review in the
negative.
fl[65} Ms. Lloyd also argues the judge was required to consider the feasibility of
recording testimony as permitted by FRCP 30(B). As stated before, the Ohio Rules of
Civil Procedure govern this case, not the FRCP. Moreover, even if the FRCP were
applicable, FRCP 30 pertains to “depositions by oral examination.” She does not,
however, allege error in regard to depositions.
{f66} Accordingly, Ms. Lloyd’s fourth assignment of error is without merit.
Ms. Lloyd’s seventh assignment of error states:
{^68} The trial court committed reversible error and an abuse of discretion
by denying Lloyd discovery (T.d. 269 Paragraph 4)(T.d. 302,
Paragraph 4) [sic]
{|69} Under this assignment of error, Ms. Lloyd asserts that she is entitled to Mr.
Thomsbery’s social media usernames and passwords, citing Forinash v. Weber, 6th Dist.
However, her reliance on Forinash is

Sandusky No. S-16-019, 2017-0hio-1076.
misplaced.

The Sixth District Court of Appeals in Forinash did not discuss the

accessibility of Facebook passwords and usernames to parties to a defamation suit.
Instead, Forinash reversed a trial judge’s award of nominal damages, which was based
on the assumption that a Facebook post would primarily be seen in the county in which it
was posted, finding that assumption erroneous,

The court remanded for the

reexamination of damages. It also affirmed the decision of the lower court finding there
was no spoliation of evidence when defendant deleted the relevant post upon receiving
the complaint when the plaintiff failed to file a protection order and the remedy sought
was the removal of the Facebook post. Those facts are inapplicable to the case at hand.
Therefore, Ms. Lloyd has provided no law in support of her argument that she is entitled
/

to the username and password of Mr. Thomsbery's Facebook page. ‘"It is the duty of the
appellant, not the appellate court, to construct the legal arguments necessary to support
the appellant’s assignments of error.'" Deutsche Bank Natl. Tr. Co. v. Sopp, 10th Dist.
Franklin No. 14AP-343, 2016-0hio-1402, ft. quoting Bond v. Village of Canal
Winchester, 10th Dist. Franklin No. 07AP-556,2008-Ohio-945, fl16.
{f70} Moreover, Ms. Lloyd attached almost 300 pages of exhibits, most of which
were pictures of the defendants' Facebook posts. She alleges that the parties have since
made their pages private, but her complaint was based on posts made by defendants
prior to the complaint. At the time of the complaint, their pages were not private, and Ms.
Lloyd took pictures of the relevant posts and attached them as exhibits. As such, we fail
to see how Ms. Lloyd was prejudiced by the trial court's denial of access to the defendants
Facebook usernames and passwords.
{f71} Additionally, Ms. Lloyd argues that she “was never given the opportunity to
conduct discovery on the majority of the Defendants as [Judge] Doherty was supposed
to amend the case management plan at status conference in July 2017 but that hearing
never took place." She argues that she was denied a constitutional right to discovery.
However, “the denial of additional time to conduct discovery does not rise to the level of
a due process violation because ’[tjhere is no general constitutional right to discovery.'”
Ditech Financial, LLC v. Glob. Capital Partners, 10th Dist. Franklin No. 17AP-470,2018Ohio-1998, 1|11, quoting Midland Steel Prods. Co., v. Intematf. Union, United Auto.,
Aerospace and Agricultural Implement Workers, Local 486, 61 Ohio St.3d 121, 131
(1991).

/

{1172} Moreover, her argument that she was never given the opportunity to
conduct discovery is not supported by the record. When Ms. Lloyd sought leave to file
an amended complaint in February 2017, the discovery deadline was extended an
additional two weeks to March 31, 2017. She filed her amended complaint on March 3,
2017 and filed an additional request to extend discovery just before the deadline. A
hearing was held on March 31. 2017, the day of the discovery deadline, but the order
issued following that hearing did not address the discovery deadline. There is nothing in
the record which shows that Ms. Lloyd or her attorney requested that the discovery
extension be addressed in that hearing. Regardless, Ms. Lloyd did, in fact, continue to
conduct discovery, for example, by senring Requests for Admissions on May 5, 2017.
Moreover, neither she nor her attorney pursued a follow up on the request for a new case
management plan or the extension for over two years.
fl[73} In June 2019, Ms. Lloyd filed a motion for writ of mandamus in this court
seeking, inter alia, a writ ordering the trial court to rule on her motion to extend discovery.
Before she voluntarily withdrew that motion, this court denied her “Emergency Motion for
Stay" in a June 14, 2019 judgment entry. In that entry, we noted that “[although [Lloyd]
maintains that she could not conduct discovery over this two-plus-year period due to the
March 31, 2017 deadline, she concedes her motion to extend was unopposed and the
docket demonstrates she filed numerous requests for admissions in May and June 2017.
It is unclear, irrespective of the March 2017 deadline, why [Lloyd] did not attempt to seek
further discovery throughout the next two-year period, especially when previous attempts
were unopposed.” We further noted that the procedural history in the record “certainly
suggests]" Lloyd was prepared to proceed with trial. We see no reason to now deviate

from that prior finding. In light of the foregoing, we find the trial court did not abuse its
discretion in denying her motion to extend discovery.
flj74} Finally, Ms. Lloyd also states that "Rule26(a)(2) prevents an attorney from
taking undue advantage of an adversary.” We need not decipher which rule she is citing
as she does not assert in any way that any attorney took undue advantage of any
adversary.
fl[75} Accordingly, Ms. Lloyd’s seventh assignment of error is without merit.
{f76} Her fifth assignment of error states:
(f771 The trial court committed reversible error and an abuse of discretion
by granting directed verdict?[ l(T.d. 332)(T.d. 343) [sic]
{f78} Ms. Lloyd argues that the trial court erred by granting directed verdicts
against several defendants after her counsel foiled to mention them by name in his
opening arguments. She also faults the court for giving her counsel 20 minutes for
opening statements. A trial court’s decision on a motion for directed verdict presents a
question of law, which an appellate court reviews de novo. Groob v. Keybank, 108 Ohio
St.3d 348, 2006-0hio-1189, U14.
fl[79} Initially, we note that Ms. Lloyd’s counsel was given the opportunity of
requesting additional opening statement time and declined:
fl[80} THE COURT: Okay. 20 minutes? More, you need more?
{1181} MR. HULL: No.
fl[82) THE COURT: 20 minute limit? 1 mean, I ordinarily don’t do that, but
we have so many parties here, I’m trying to keep the trial within a
reasonable time for us to conclude, so, okay. Good.

^19

im

The limit was applied equally to all parties and Ms. Lloyd's counsel declined

additional time. Therefore, we find no error

with the trial court’s limiting the opening

statements.
Ohio Civ. R.

50(A)(4), not the Federal Rules of Civil Procedure as stated

earlier, governs direct verdicts in this case and states.
ms\ When a motion for a directed verdict has been properly made and
1 ' the trial court, after construing the evidence most strongly in favor of
the party against whom the motion is directed, finds that upon any
deteSve issue reasonable minds could come to but one
conclusion upon the evidence submitted and that conclusion is
adverse to such party, the court shall sustain the motion and direct a
verdict for the moving party as to that issue.

m)

“[A] trial court may grant a motion for directed verdict made at the close of

a party’s opening statement only when that statement indicates that the party will be
unable to sustain its cause of action or defense at trial." Parrish v. Jones, 138 Ohio St.3d
23, 2013-Ohio-5224, H10. We are cognizant that “'[a] trial court should exercise great
caution in sustaining a motion for a directed verdict on the opening statement of counsel;
it must be clear that all the facts expected to be proved, and those that have been stated,
do not constitute a claim for relief or a defense, and the statement must be liberally
construed in favor of the party against whom the motion has been made.'” Id. at 1)25,
quoting Brinkmoellerv. Wilson, 41 Ohio St.2d 223 (1975). Directed verdict may only be
granted following opening statements when the statements indicate that the party will be
unable to sustain its claim for relief or defense at trial. Id.
ffl87) 'The trial court does not commit error in granting a defendant's motion for
directed verdict, made at the close of plaintiffs opening statement, 'if, engaging in every
reasonable inference from facts favorable to the party against whom the motion is
directed, the proposed proof would not sustain a claim upon which relief could be

f> 1°

granted.”’ U.S. Aviation Underwriters, /nc. v. B.F. Goodrich Co., 149 Ohio App.3d 569:
2002-Ohio-5429, H13 (9th Dist.), quoting Phillips v. Borg-Wamer Corp., 32 Ohio St.2d
266, 268 (1972). In short, "to sustain the motion, ’it must be clear that ail the facts
expected to be proved, and those that have been stated, do not constitute a claim for
relief or a defense, and the statement must be liberally construed in favor of the party
against whom the motion has been made.’” Lippy v. Soc. Natl. Bank, 100 Ohio App.3d
37,41 (11th Dist.1995), quoting Brinkmoeller, supra, at syllabus.
{f88} Therefore, the issue to be determined is whether Ms. Lloyd’s opening
statement failed to state a claim against seventeen defendants. After careful review of
the record and construing the facts in the light most favorable to Ms. Lloyd, we conclude
her opening statement failed to state the necessary claims, as she altogether failed to
mention any element of any claim against seventeen defendants.
Several Ohio courts have upheld directed verdicts after opening statements
when the nonmoving party failed to mention a critical element of a claim for relief. See,
e.g., Hicks v. Garrett, 5th Dist. Stark No. 2011CA00109, 2012-0hio-3560, H68 (granted
directed verdict was not error in a negligent hiring/supervising case when appellant failed
to argue in opening arguments that appellee's actions were anything other than
independent self-serving acts which in no way facilitated or promoted the business of the
other appellees.); Escort Transport, Inc. v. United Trans., Inc., 10th Dist. Franklin No.
80AP-574, 1980 WL 353879, *2.
(f90) Moreover, Ms. Lloyd’s reliance on her complaint is misplaced. “Although
the trial court is not required to consider the pleadings when ruling on a Civ.R. 50(A)(1)

X.
n/

motion, in

liberally construing the motion in favor of the opposing party, it may do so.

(Emphasis original.) Parrish, supra.

m)

Accordingly, Ms. Lloyd's fifth assignment of error is without merit.

fl(92} Her sixth assignment of error states:
ff93l Trial court committed reversible error and abuse of discretion by
denying Lloyd a new trial,[ ]mistrial and her Motion for Judgment
Notwithstanding the verdict in violation of FRCP 50, 59 and local rule
8.03 (T.d. 341)(T.d. 365, Paragraph 1) [sic]
(194)

Under her sixth assignment of error, Ms. Lloyd’s only argument is that the

trial court erred by failing to hold a hearing before denying her a motion for a new tnai,
mistrial, and motion for judgment notwithstanding the verdict.

W5} As stated above, the Federal Rules of Civil Procedure are not applicable
here.

The equivalent Ohio Rules of Civil Procedure relevant here are Civ.R. 50 and Civ.R.

59. However, neither rule requires the court to hold a hearing before ruling on these
motions.

Moreover, as we discussed under her second assignment of error, violations of

Local Rules do not generally constitute grounds for reversal.
Accordingly, Ms. Lloyd’s sixth assignment of error is without merit.
{f97} Her eighth assignment of error states:
{f98} The trial court committed reversible error and an abuse of discretion
by violating FRCP Rules for admissibility of evidence and Local Rule
7 06[.]
fl[99) Ms. Lloyd argues that the trial court erred by not allowing the depositions or
testimony of her doctors, nor body camera footage, to be admitted. She argues the court
violated Loc.R. 7.06, which stated at the time of trial in pertinent part:
{1(100} * * * An objection to a video tape deposition shall be submitted to the
Court in writing at least three (3) days before trial. On separate paper,
counsel shall cite his/her authority for the objection.

n

ffllOl} Ms. Lloyd attempted to enter into evidence a deposition of Dr. Banzoic taken
in a separate Portage County Common Pleas Court case, 2017CV00390. She argues it
should be admitted because in that case Mr. Thomsbery was a defendant represented
by Attorney Hanna, and in this case, Mr. Thomsbery is a defendant and Attorney Hanna
is an attorney of record in this case. Mr. Thomsbery argues Dr. Banzoic's testimony is
hearsay and was properly excluded.
{fl02} Hearsay “is a statement, other than one made by the declarant while
testifying at the trial or hearing, offered in evidence to prove the truth of the matter
asserted.” Evid. R. 801. Hearsay is not admissible unless it falls under an exception
listed in Evid.R. 803 or 804.
fl[103} Ms. Lloyd does not argue this testimony falls under any hearsay exception,
nor that Dr. Banzoic was unavailable to testify. To the contrary, Ms. Lloyd requested a
continuance to call Dr. Banzoic as a witness. We find the testimony of Dr. Banzoic from
a prior case does not fall under any hearsay exception. Accordingly, the court did not err
by refusing to admit it.
{fI04} Ms. Lloyd also attempted to enter into evidence body camera footage. The
court ordered that copies of all exhibits, including videos, be provided to opposing
counsel. Attorney Hull sent an email to defense counsel entitled “body cam footage” but
there was no video attached. When he attempted to enter the video into evidence at trial,
opposing counsel objected on the basis that they had not seen the footage before. Ms.
Lloyd’s counsel argued that it was public record they could have accessed and that the
defendants should know what was on that video because they were the ones being
recorded.

{fl05} However, it is immaterial that the footage was public record or that the
defendants were on the video. It was Ms. Lloyd’s exhibit and she failed to follow the
court's instructions to provide that evidence to opposing counsel. Opposing counsel
properly objected to its introduction without the opportunity to view it first. The trial court
did not err in sustaining the objection.
{^[106} Accordingly, Ms. Lloyd’s eighth assignment of error is without merit.
flfl07} Her ninth assignment of error states:
{f108} The trial court committed reversible error and an abuse of discretion
by allowing Whitacre to violate his own orders in regards to Ltoydfls
Motion in Limine under ongoing and heavy objection by Huli[.]
{f109} Ms. Lloyd filed a motion in limine requesting the defendants be precluded
from calling any witnesses, "referencing in any capacity any person, or any knowledge,
facts, transactions, occurrences or other happened of any person, other than any party
identified on plaintiffs Witness List,” and "from using, introducing at [trial] or referencing
in any capacity, any document other than those on Plaintiffs Exhibit List.” Several
defendants objected. The court ruled on the motion on the first day of trial, after asking
each defense counsel if they intended to call any witness that are not parties. Each
answered in the negative and the court stated: "Then relative to that issue, the motion in
limine is granted to the extent that the Defendants may not call witnesses who are not
parties.”
{fllO} A motion in limine is “'tentative and precautionary in nature, reflecting the
court’s anticipatory treatment of an evidentiary issue at trial." Brannon v. Austinburg
Rehab. & Nursing Ctr., 190 Ohio App.3d 662, 2010-Ohio-5396, TJ18 (11th Dist), quoting
Biro v. Biro, 11th Dist. Lake Nos. 2006-L-068 and 2006-L-236, 2007-0hio-3191,H18. "A
ruling on a motion in limine reflects the court’s anticipated treatment of an evidentiary

issue at trial and is a tentative, interlocutory, precautionary ruling." Orbit Elecs., Inc. v.
Helm Instrument Co., 167 Ohio App.3d 301, 2006-0hio-2317, 1J17 (8th Dist.). “'The
sustaining of a motion in limine does not determine the admissibility of the evidence to
which it is directed. Rather it is only a preliminary interlocutory order precluding questions
being asked in a certain area until the court can determine from the total circumstances
of the case whether the evidence would be admissible.’” Id. at f18, quoting State v.
Maurer; 15 Ohio St.3d 239, 259-260, (1984), fn. 14, quoting Palmer, Ohio Rules of
Evidence, Rules Manual (1984) 446.
(fill) During trial, Attorney Hull objected on the basis of the motion in limine
several times, most of which were overruled. Attorney Hull and Ms. Lloyd seemed to
operate under the assumption that the motion in limine was granted exactly as Ms. Lloyd
requested. However, the record is clear that the motion was granted only to the extent
that Defendants could not call witness who were not parties. No defendant did so.
(f112} Accordingly, Ms. Lloyd’s ninth assignment of error is without merit.
(fll3) Her eleventh assignment of error states:
(f114} The trial court committed reversible error and an abuse of discretion
by not properly instructing the jury on Destruction of Timber and
Willful and Wanton claims.
(fns} Under this assignment of error, Ms. Lloyd argues that the court should have ,
included a jury instruction on destruction of timber, in violation of R.C. 901.51, and "willful
and wanton conduct.”
{fll6} “An appellate court will reverse a trial court’s refusal to give a party’s
requested jury instructions only if the trial court abused its discretion, and if so, only if that
refusal was prejudicial to the complaining party.” Frost v. Snitzer, 11th Dist. Trumbull No.
2005-T-0090, 2006-Ohio-3882, f95, citing Ballard v. Wal-Mart Stores, Inc., 12th Dist.

i is

Warren No. CA98-05-014,1999 WL 8353 (Jan. 11,1999). “'Prejudice' will be found only
when the alleged error ‘cripples the entire jury charge.'” Frost, supra, quoting Jaworowski
v. Med. Radiation Consultants, 71 OhioApp.3d 320,327-328 (2d Dist.1991). “As a whole,
the jury charge must be 'so misleading and prejudicial to induce the erroneous verdict.'”
Frost, supra, quoting Cleveland Elec. Illuminating Co. v. Astorhurst Land Co., 18 Ohio
St3d 268,272 (1985). “'If, 'taken in their entirety, the instructions fairly and correctly state
the law applicable to the evidence presented at trial, reversible error will not be found
merely on the possibility that the jury may have been misled”" Withers v. Mercy Hosp.
of Fairfield, 12th Dist. Butler No. CA2010-02-033,2010-0hio-6431, 1(17, quoting Silverv.
Jewish Home of Cincinnati, 12th Dist. Warren No. CA2010-02-015,2010-0hio-5314,1(81,
quoting Wozniak v. Wozniak, 90 Ohio App.3d 400,410 (9th Dist.1993). See also Frost,
supra.
{1(117} Preliminarily, we note that Ms. Lloyd does not make any argument that she
was prejudiced by the jury instructions. For this reason alone, Ms. Lloyd's arguments
under this assignment of error fails.
{1(118} Moreover, at trial, Ms. Lloyd's attorney did not submit proposed jury
instructions, though he made several verbal suggestions, which were ultimately rejected.
He objected to the instructions on two points: that the court failed to provide a separate
instruction on destruction of timber and on “willful and wanton conduct."
{1(119} First, we note that Ms. Lloyd's fourth amended complaint itself does not list
“willful and wanton misconduct” as its own separate claim for relief; instead she alleges
“negligence with willful and wanton misconduct.” Regardless, even if the trial court erred
in failing to give a separate instruction on willful and wanton misconduct, Ms. Lloyd would

i *

not be able to show prejudice as the trial court instructed the jury to consider whether any
of the defendants’ actions were wanton or willfully done, and the jury found in the
defendants’ favor, not finding willful or wanton misconduct.
{fl20} As to the destruction of timber claim, the court did include instructions on
the destruction of timber in the instructions regarding trespass to the jury. The jury found
that no defendant had trespassed to destroy timber or otherwise. Thus, Ms. Lloyd would
not be able to show prejudice even if we were to find file trial court erred in not including
a destruction of timber instruction to the jury.
ft[121} Additionally, Ms. Lloyd alleges Judge Pokomy and at least one juror fell
asleep during trial. She does not, however, cite any instance in the record where Ms.
Lloyd or her attorney noted on the record that the judge or a juror fell asleep. It is not the
duty of an appellate court to search the record for evidence to support an appellant's
argument as to an alleged error. Sopp, supra, at 1J6. Accordingly, we find no merit to her
claims.
flf!22) Ms. Lloyd also faults the court for “having the jury room where they can be
heard in the court room.” She alleges the jury could be heard laughing from the court
room. Even accepting this as true, Ms. Lloyd does not make any argument that she was
prejudiced by their laughter. She does not suggest a reason why the jury was laughing;
nor is there anything in the record to support her claim. Fatally, she fails to cite any law
in support of her argument that the jury room should not be allowed within a certain
distance of the court room. As stated under Ms. Lloyd's seventh assignment of error "It
is the duty of the appellant, not the appellate court, to construct the legal arguments

necessary to support the appellant’s assignments of error.” Sopp, supra, quoting Bond
v. Canal Winchester; 10th Dist. Franklin No. 07AP-556, 2008-Ohio-945, f{16.
{^[123} Accordingly, Ms. Lloyd’s eleventh assignment of error is without merit
{f124} Her twelfth assignment of error states:
fl[125} The trial court committed reversible error and an abuse of discretion
by violating FRCP 56 and having Judgement for the Defendants
when they admit to fault and there is no disputed facts in this case
and there was testimony to support every one of Lloyds claims, [sic]
fl[126} Under this assignment of error, Ms. Lloyd lists every instance where she
believes a defendant admitted fault. She presents her interpretation of the evidence
presented at trial and ignores any evidence presented to the contrary. Critically, she cites
no law other than a reference to FRCP 56, which pertains to summary judgment and, as
previously stated, is not applicable in this case.

Even applying Ohio’s Civil Rules

pertaining to summary judgment, she did not move for summary judgment, and cannot
raise the issue for the first time on appeal. See Stores Realty Co., v. City of Cleveland,
Bd. of Bldg. Standards and Bldg. Appeals, 41 Ohio St.2d 41 (1975); Goldfuss v. Davidson
(1997), 79 Ohio St.3d 116,121 (1997).
ftfl27} Accordingly, Ms. Lloyd’s twelfth assignment of error is without merit.
{fl28} In light of the foregoing, the judgments of the Portage County Court of
Common Pleas are affirmed.
dismissal is denied.
MARY JANE TRAPP, P.J.
TIMOTHY P. CANNON, J.,
concur.

Defendant-appellee, Amanda Shuherk’s, motion for

f

STATE OF OHIO

IN THE COURT OF APPEALS

COUNTY OF PORTAGE

ELEVENTH DISTRICT

i

;
!
;
i

SUSAN LLOYD,

JUDGMENT ENTRY

I

Plaintiff-Appellant,

i

ragcyn *ft4<hPfl1f|fl

-vs-

!

COURT OF APPEAKS
JOSHUA THORNSBERY, et al.,

JAN 2 9 2021

Defendants-Appellees.

JIUFANKHAUSERCM

'!

Forth® reasons stated in the opinion of this court, appellant’s assignments

i
i

of error are without merit. It is the judgment and order of this court that the
judgments of the Portage County Court of Common Pleas are affirmed.

l

i

i

1?

Costs to be taxed against appellant.
Appellee, Amanda Shuherk*s, motion for dismissal is denied.

\
*

l
i
i

>

f

5

I

JUDGE CYNTHIA WESTCOTT RICE
i

l

MARY JANE TRAPP, P.J.,
TIMOTHY P. CANNON, J.,

concur.
i

JN THE COURT OF APPEALS
ELEVENTH APPELLATE DISTRICT
PORTAGE COUNTY, OHIO
SUSAN LLOYD,

GOUW OmS’EAIB

JAN 2 9 2021

sss®**
OH

OPINION

Plaintiff-Appellant,
CASE NO. 2019-P-0108

- vsJOSHUA THORNSBERY, et al„
Defendants-Appellees.

Civil Appeal from the Portage County Court of Common Pleas,
Case No. 2016 CV
00230.
Judgment: Affirmed.
Susan Uoyd, pro se, P.O. Box 2577, Streetsboro, OH 44241 (Plaintiff-Appellant).
(For

c- *

Jason A. Whrtacre, Flynn, Keith & Flynn, 214 South Water Street, Kent OH 44240 fFor
Defendante-AppeHees, Apryle Davis, Darrel Huber, Eric Siwierka, Jamie Newman
Jason Ortman^Joshua Thomsbery, Nick Balas, Phillip Siwierka, Shelly Ortman Stac’i
Dalton Ltddle, Theresa Giaimo, and Tim Welms).
Lindsay N. Molnar, Perduk & Associates Co., LPA, 3603 Darrow Road Stow OH 44224
(For Defendants-Appellees, Michael Szabo and Sandi Szabo).
Daniel Bennett, pro se, 119 Ebersole Road, Fredericktown OH 43019 (DefendantAppellee).
Hartey Angel a.k.a. Robin White, pro se, 10254 Brosius Road, Garrettsville OH 44231
(Defendant-Appellee).
*
Amanda Shuherk, pro se, 08577 County Road C, Bryan OH 43506 (DefendantAppellee).

J

David Trussel, pro se, 6412 Linda Lane, Ravenna
Appellee)^’ ^ ^

, OH 44266 (Defendant-Appellee).

V',Bliam Henry Drive- streetst>or0, OH

44241 (Defendant-

JairdKendzior, prose, 1094 Moneta Avenue, Aurora, OH 44202 (Defendant-Appellee).
Marty Kendzior, pro se, 6576 Munseil Road, Howell, Ml

48843 (Defendant-Appellee).

Rebecca Schaffer, pro se, 6412 Linda Lane, Ravenna, OH 44266 (Defendant-Appellee).
Sfendant-Appetee)Pr0 ^ 7085 ^ Hi"S Bou,evard- Seve" Hills, OH 44131
Sue Whitlam, pro se, 466 Brentwood Avenue, Kent, OH 44240 (Defendant-Appellee).
William Taylor, pro se, 2122 Gates Avenue, Streetsboro, OH 44241 (DefendantAppellee).

CYNTHIA WESTCOTT RICE, J.
(Ifl) Appellant, Susan Uoyd, pro se, appeals six Judgment Entries or Orders of
the Portage County Court of Common Pleas, which generally denied Ms. Lloyd’s post­
judgment motions and granted various defendant-appellees’ motions and sanctions
against Ms. Lloyd. For the reasons discussed herein, the judgments are affirmed.
fl|2}

The underlying case stemmed from a dispute between Ms. Lloyd and her

former next-door neighbor, Mr. Thomsbery, regarding, inter alia, his alleged trespassing
and removal of trees allegedly located on her property. Ms. Lloyd brought suit against
Mr. Thomsbery, the tree removal company, and many of Mr. Thomsbery’s friends who
posted negative comments about her on Facebook.

Ms. Lloyd’s fourth amended

complaint spanned nearly 500 pages and alleged 101 causes of action against 26
defendants. The case proceeded to a five-day trial by jury. Numerous parties were
dismissed at various times throughout the underlying proceedings; the jury found in favor

?i

of certain defendants on 11 causes of action; the trial court granted directed verdict for
11 additional causes of action. After trial but before the court journalized the verdict, Ms.
Lloyd's counsel, Attorney Hull, was permitted to withdraw his representation.
(1P}

She appealed various findings and motions pro se in a prior appeal; this

court affirmed the trial court’s judgments against her in Uoyd v. Thomsbery, 11th Dist.
Portage No. 2019-P-0080,___ -Ohio-___ CUoydl”).
(TO Additionally, shortly after trial, several defendant-appellees filed motions for
sanctions against Ms. Lloyd and Attorney Hull. The motion for sanctions against Attorney
Hull was dropped but the motion for sanctions against Ms. Lloyd was ultimately granted.
It is primarily from this decision that Ms. Lloyd now appeals, pro se, assigning nine errors.
{fl5}

Preliminarily, we note that Ms. Lloyd argues for the applicability of the

Federal Rules of Civil Procedure (FRCP) throughout her appeal. However, as Ms. Lloyd
filed her complaint in state court, the Ohio Rules of Civil Procedure are applicable, not the
FRCP.

Fed.R.Civ.P. 1 ("These rules govern the procedure in ail civil actions and

proceedings in the United States district courts * *

(Emphasis added.) However, as

the Ohio Rules of Civil Procedure are often closely analogous to the FRCP, and in the
interest of justice, alleged violations of the FRCP will be construed as if alleged to be
violations of their Ohio counterparts.
flf6}

Ms. Lloyd’s first assignment of error states:

{1(7} The trial court committed an abuse of discretion and reversible error
by placing orders after July 16, 2019 and refusing to vacate them
when the case was on appeal and the trial court had no
jurisdiction(T.d. 479)(T.d. 486)(T.d. 504)(T.d.505)(T.d 506)
{118}

Under her first assignment of error Ms. Lloyd argues the court erred in

awarding attorney fees, and that the trial court did not have jurisdiction to enter any orders

?>

after she filed her first appeal on July 16,2019. In support, she cites Jay v. Massaohus
etts
Cas. Ins. Co., 5th Dist Stark No. 2009CA00056, 2009-0hio-4519.

Determination of a

court s jurisdiction is a question of law we review de novo. Id. at 1J6
m

Though not specifically noted by Ms. Lloyd, the record shows the following

orders issued after July 16,2019 and appealed by Ms. Lloyd:
{flO} October 10, 2019: an order setting final hearing on defendants’
sanctions motions for October 18,2019.
{fll} October 18, 2019: order ruling on 33 miscellaneous motions filed
including 28 post-trial motions filed by Ms. Lloyd.
{fl2} October 18, 2019: order overruling motion to dismiss, granting a
motion to appear by phone, dealing the record, and ordering parties
to submit proposed sanctions orders.
fl[13} November 8,2019 order sanctioning Ms. Lloyd.
fl[14} Two November 8,2019 orders awarding attorneys’ fees.
November 8, 2019 judgment entry vacating the court's prior entry
releasing the audio recordings.
fPQ November 8, 2019 judgment entry overruling two additional motions
filed by Ms. Lloyd.
fl[17} “Once an appeal is taken, the trial court is divested of jurisdiction except
‘over issues not inconsistent with that of the appellate court to review, affirm, modify or
reverse the appealed judgment, such as the collateral issues like contempt * * *.

State

ex ml. State Fire Marshal v. Curl, 87 Ohio St.3d 568, 570 (2000), quoting State ex ml.
Special Prosecutors v. Judges, Court of Common Pleas, 55 Ohio St.2d 94,97 (1978) and
citing Haller v. Bormr, 107 Ohio App.3d 432,436 (10th Dist.1995). Even once an appeal
is taken, a trial court “may consider collateral issues not related to the merits of the action,
such as a motion for sanctions or a motion for criminal contempt.” Middleton v. Luna's

Restaurant & Deli L.L.C., 5th Dist. Stark No. 2011-CA-00181,2012-Ohio-348,1f11, citing
State ex rel. Hummel v. Sadler, 96 Ohio St.3d 84,2002-0hio-3605,1)23.
flfl8) And again, “[fft is well-settled law that a trial court retains jurisdiction over
proceedings in aid of execution of its judgments, even while those judgments are on
appeal.” Horvath v. Packo, 6th Dist. Lucas No. L-11-1318, 2013-Ohio-56, 1J16, citing
State, ex ml. Klein v. Chorpening, 6 Ohio St.3d 3 (1983), citing R.C. 2505.08 (“[A]n appeal
does not operate as a stay of execution until a stay of execution has been obtained * * *
and a supersedeas bond is executed * # * »). “For this reason, Civ.R. 62(B) affords an
appellant the opportunity to stay the judgment pending appeal through the giving of an
adequate supersedeas bond.” Horvath, supra.
fl[19} Here, it is undisputed that there was no stay of appeal, nor did Ms. Lloyd
post a supersedeas bond.

Moreover, the law is clear that the trial court retained

jurisdiction to decide defendants’ motion for sanctions, as sanctions are a collateral
matter.
fl|20) As to the court’s ruling on Ms. Lloyd’s motions, Civ.R. 4(B)(2) states, in
pertinent part*
Civil or juvenile post-judgment motion. In a civil case or juvenile
proceeding, if a party files any of the following, if timely and
appropriate:
{1J22} (a) a motion for judgment under Civ.R. 50(B);
{f23} (b) a motion for a new trial under Civ.R. 59;
(1124} ***
{^25} (d) a request for findings of fact and conclusions of law under Civ.R.
52, Juv.R. 29(F)(3), Civ.R. 53(D)(3)(a)(ii) or Juv.R. 40(D)(3)(a)(ii);
fl[26) (e) a motion for attorney fees; or

{1127} (f) a motion for prejudgment interest
ffl28}

^timejor fiJin9 a notice °f appeal from the judgment or final

pos^udgmentfiiings in question and shall stay appellate proceedings
until the trial court has done so. * * *
{1130} jf the trial court had not ruled on the post-judgment motions, this court would
have remanded the appeal, staying appellate proceedings until the trial court had ruled
on them. Thus, the outcome would have been the same whether or not Ms. Lloyd’s
appeal was pending. The trial court did not err in entering these post-judgment orders.
Accordingly, Ms. Lloyd's first assignment of error is without merit.
{f32} Her second states:
{f33} The trial court committed reversible error and abuse of discretion by
sealing case 2016CV00230(T.d. 487)
{1134} Under her second assignment of error, Ms. Lloyd argues the trial court erred
by sealing this case. On October 18, 2019, the trial court entered a judgment, stating in
part: "Defendants’ Motion to Seal the Record is granted." However, on November 8,
2019, the court clarified that order, stating in part: “The Court’s entry sealing the record
pertains only to names and addresses of jurors and the verdict forms. All other filings,
transcripts and exhibits of the case are NOT subject to this order ” Thus, the record is
not sealed, except for the identity and contact information of the jurors, and the jury verdict
forms.
{U35} Moreover, while there is no statute either authorizing or precluding the
sealing of civil cases, the Ohio Supreme Court has recognized, "[t]he inherent authority

50

of a court to expunge and seal a record does

not turn on whether a proceeding is criminal

or civil. Rather, the determination is whether ‘unusual and exceptional circumstances’
exist and whether the interests of the applicant outweigh the legitimate interest of the
government to maintain the record.” Schussheim v. Schussheim, 137 Ohio St.3d 133,
2013-Ohio-4529, f!6. See also Capital One Bank,

USA, N.A. v. Essex, 2nd Dist.

Montgomery No. 25827, 2014-Ohio-4247,19.
(H36) In this case, the unusual and exceptional circumstances are clear. Ms.
Lloyd demonstrated a pervasive and consistent pattern of levying personal attacks,

not

based in any legitimate legal claim, on those who opposed her the 26 defendants listed
in her complaint, the attorneys who represented them, the first trial court judge,

the

appointed trial court judge, and the court staff. The record is fraught with Ms. Lloyd’s
meritless pro se filings, even during periods when she was represented by counsel. For
example, she made numerous attempts to disqualify the two judges who presided

over

her case; after failed affidavits of disqualification to the Supreme Court of Ohio, the initial
judge recused herself and the Supreme Court of Ohio appointed a visiting judge. Ms.
Lloyd then filed at least four affidavits of disqualification against the visiting judge. In
response to the last affidavit, the Supreme Court of Ohio warned her that future frivolous
filings would result in sanctions against her. Additionally, she attempted to disqualify
opposing counsel by sending their law firm an email offering negative character testimony
against different opposing counsel in an unrelated case of eviction against him. She also
accused the court and its staff of altering the transcripts to paint her in a negative light.
{137} By sealing the identities of the jurors, the trial court is protecting the privacy
of the jurors. Moreover, she makes no allegation of error on the part of the jury on appeal

7

and makes no argument that she is

prejudiced by the sealing of the jury records.

Accordingly, we find no error in the court's decision to

seal the jury verdict forms and
jurors’ identities, especially considering all other records in this
case are open and part of
the public record.
{f38} Her second assignment of error is without merit.
{1139} Her third assignment of error states:
{1T40} The trial court committed reversible error and an abuse of discretion
by stoning Lloyd and refusing to dismiss all sanctions
against
Lloyd (T.d.487)(T.d. 505){T.d. 506)
mi] Most of Ms. Lloyd 26-page argument under her third assignment of error
are unsubstantiated claims, or attempts to relitigate the case, with minimal citati
record or the law. Several of the arguments she makes

ons to the

were resolved by this court in

Uoyd I. She is barred by res judicata from now raising issues that were or could have
been raised in a previous appeal. See Grava v. Parkman Twp., 73 Ohio St3d 379,
(1995), syllabus (“[A] valid, final judgment rendered upon the merits bars all subsequent
actions based upon any claim arising out of the transaction or occurrence that was the
subject matter of the previous action.”). We reject the invitation to again address matters
addressed in Uoyd /, including but not limited to the issues of admissibility of evidence,
discovery, jury instructions, and attorney fees, in this present appeal.
fl[42} Nevertheless, in the interest of justice, we review the trial court’s decision
to sanction Ms. Lloyd. The standard of review to be utilized when reviewing rulings on
R.C. 2323.51 is mixed; the trial court’s initial decision that a party engaged in frivolous
conduct that will not be disturbed where the trial court’s findings are supported by
competent, credible evidence. Keith-Harper v. Lake Hosp. Sys., Inc., 11th Dist. Lake No.
2015-L-137,2017-Ohio-7361,1f23. The decision to assess a penalty for frivolous conduct

s n

is reviewed for an abuse of discretion. Id. at J24. The term “abuse of discretion” i
is one
of art, connoting judgment exercised by a court which neither comports with reason

, nor

the record. State v- Ferranto, 112 Ohio St 667, 676-678 (1925). An abuse of discretion
may be found when the trial court “applies the wrong legal standard, misapplies the
correct legal standard, or relies on clearly erroneous findings of feet." State v. Figueroa,
11th Dist Ashtabula No. 2016-A-0034,2018-Ohio-1453, J26, citing Thomas v. Cleveland,
176 Ohio App.3d 401, 2008-0hio~1720, ff!5 (8th Dist.).
fl[43} Preliminarily, we address Ms. Lloyd's jurisdictional argument Ms. Lloyd
argues that since she moved out of the state of Ohio in February 2019, the court no longer
has personal jurisdiction over her to issue sanctions. However, Ms. Lloyd initially filed
her lawsuit against defendants in the Portage County Court of Common Pleas, thus
consenting its personal jurisdiction over her. Further, she may be deemed to have
continually waived personal jurisdiction by failing to raise the issue at the trial level and
continuing to request service, file motions, and respond to filings in the Portage County
Court of Common Pleas. See Sec. Ins. Co. v. Regional Transit Auth., 4 Ohio App.3d 24,
28 (8th Dist.1982) (“A question of personal jurisdiction (unlike a question of subject matter
jurisdiction) may not be raised for the first time on appeal."); Ohio Hosp. Ins. Co. v.
Physicians fns. Co. of Ohio, 11th Dist. Lake No. 92-L-096,1993 WL 548438, *6 (Dec.30,
1993)(noting that personal jurisdiction can be waived.).
fl|44} Ms. Lloyd also argues Civ.R. 11 authorizes sanctions against attorneys, not
parties. However, Civ.R. 11 allows sanctions for willful violations of the rule by any
attorney or a pro se party. Id. Here, Ms. Lloyd proceeded pro se at several instances,
including the first filing of the complaint, and from the conclusion of the jury trial forward.

9

Moreover, though sanctions were brought a

gainst her under R.C. 2323.51 andCiv.R. 11,

the court only found Ms. Lloyd’s conduct frivolous
under R.C. 2323.51.
{1f45} A motion for sanctions under R.C.

2323.51 requires a three-step analysis

« V7- -Fht did „ wm** engw ln ^

s conduct. Second,

if the conduct was frivolous, was

another party adversely affected by the frivolous

conduct. And third, the amount of award,

if any." Id., citing Tipton v. Directory Concepts,

Inc., 5th Dist. Richland No. 13CA61,2014-Ohio-1215, ff32.
(W R.C. 2323.51(A)(2)(a) defines “frivolous

conduct" in pertinent part as
conduct of a party to a civil action that satisfies any of the following:
{f47) nl!L°fbV]hUSl* !erves mere,y t0 harass or maliciously injure another
needless increase in the cost of litigation.
m}

^

ay or a

warranted ™der existing law, cannot be supported by a
good forth argument for an extension, modification or reversal^

eSshm^
{II49} («0 The conduct consists of allegations or other factual contentions
that have no evidentiary support or, if specifically
so identified, are
not likely to have evidentiary support after a
reasonable
opportunity
for further investigation or discovery.
(PO) (iv) The conduct consists of denials or factual contentions that are
not warranted by the evidence or, if specifically so identified are not
2323°5n?(AK2Ka)
°" *
* infom,ati0n °r ^ R C
(1TS1} In this case, the court found objectively frivolous conduct,
findings of facts and conclusions of law.

as stated in its

We will not reiterate all the trial court’s findings,

as they span several pages. Several of the most pertinent masons the court fo
the following:

10

und include

{f52} Ms. Lloyd disclosed prior to trial that she intended to call 55
witnesses during her case knowing they would not appear and testify
five witnesses r0Pe^y Pr°CUre th®ir testimony; at trial-she onlV called
{1f53} Ms Lloyd knew she did not possess all of the disclosed exhibits and
defied the court’s orders to provide defendants’ counsel with all
exhibits prior to trial. She attempted to provide color photographs at
tnal, but provided defendants’ counsel with blotched, black and white
copies.
(1f54} Ms. Lloyd knew or should have known that her case had no merit,
that she could not prove her case, and that she had insufficient
evidence to prove her case.
fl[55} She presented no evidence at trial in support of most of her claimed
damages, including but not limited to presenting no evidence:
a. proving her medical conditions and that any action of
defendants cause any medical condition;
b. that any defendant intentionally damaged or set foot on her
property;
c. that the timber removed was on her property and caused a
diminution of value of her property;
d. that any defendant made a false statement about her or was
defamatory per se or caused special harm to her. She only
presented evidence to show that defendants had a negative
opinion of her;
e. that any statement of any defendant put her in a false light;
f. that any defendant owed her a duty, and breached such duty;
and
g. that any defendant intentionally caused her emotion distress.
{f56} Before, during, and after trial, she filed dozens of motions and other
documents which included irrelevant information and served no
legitimate purpose; foe court found that her filings were designed
only to harass and embarrass defendants and others, including
employees of the court.
{f57} Despite losing at trial, she continued to repeat her allegations in
duplicitous filings that defendants had to answer.

n

j

{1158} A party need only present minimal evidentiary support of its allegations or
factual contentions to avoid a frivolous conduct finding. Kriich v. Shelton, 11th Dist.
Trumbull No. 2018-T-0104, 2019-Ohio-3441,

1J42. In Kriich, however, this court found

that although the appellant presented evidence, it did not constitute “evidentiary support”
for her allegations. Id. at fl46. The same can be said in this

case. For example, Ms.

Lloyd presented pictures of tree branches on what she purports

is her property but did

not show evidence to show the trees removed were on her property. She also showed a
picture of a Facebook post with a picture Mr. Szabo posted of a man urinating

on a fence,

but nothing indicated that it was a picture of Mr. Szabo or Ms. Lloyd’s fence.
{1159} Further, while Ms. Lloyd argues that she did not intend to harass
with her filings, “R.C. 2323.51 (A)(2)(a)® does not require evidence of intent.”
supra, at 1f55.

anyone
Kriich,

“Instead the ‘conduct1 must *obviously serve[ ] merely to harass or

maliciously injure another party* *

/d 9u°ting R-C. 2323.51(A)(2)(a)®. This is an

objective standard. Kriich, sup/a. In this case, Ms. Lloyd repeatedly filed duplicative
motions and other documents after the court had already ruled on the same matter, or
motions without a legal basis, causing the defendants to incur substantial legal cost to
defend against them. They objectively could serve no other purpose than to harass the
defendants.
fl[60} Finally, Ms. Lloyd insists that she should not be sanctioned because the
presentation of evidence was her attorney’s job. We are not persuaded, R.C. 2323.51
allows an award of attorney fees to be “made against a party, the parties counsel of
record, or both." R.C. 2323.51(B)(4). "The objective of the statute is to impose sanctions
on the person actually responsible for the frivolous conduct" Stone v. House of Day

12

Funeral Sen/., Inc., 140 Ohio App.3d 713,723,

(6th Dist.2000), citing Scheiderer & Assoc.

v. London, 81 Ohio St.3d 94, 95 (1998). Here, it is Ms. Lloyd who initiated the case

, failed

to pay the arborist for his expert testimony, took the pictures

of various Facebook posts
and set up cameras toward Mr. Thomsberys property, but tailed to realize th
ey were not
evidence of cognizable claims, and filed numerous motions pro se both while she was
represented by counsel and after he withdrew his representation.
{f61} In light of the foregoing, the trial court’s finding that many of Ms. Lloyd's
actions before, during, and after trial

constituted frivolous conduct under R.C.

2323.51(A)(2)(a) was supported by competent, credible evidence,

and its decision to

impose sanctions was not an abuse of discretion.
(1162} Accordingly, her third assignment of error is without merit
fl[63} Her fourth states:
{f64} "pie trial court committed reversible error and an abuse of discretion
by refusing to stay case 2016CV00230 until the appeals case
2019PA00080 is decided pursuant to civ R 62B(T.d. 486)
W5} Under her fourth assignment of error Ms. Lloyd argues the trial court erred
by denying her motion to stay proceedings until this court decided Uoyd L She also
argues that based on Jay, supra, the trial court was without jurisdiction to award attorney
fees because of the pending appeal. However, as this court discussed under the first
assignment of error, the trial court did not lose its jurisdiction to award attorney fees while
the Uoyd / appeal was pending.
fl[66} Furthermore, she based her motion to stay on Civ.R. 62(B), which deals
with an appellant’s ability to stay the enforcement of a judgment against the party seeking
the appeal while the appeal is pending. However, this role was not applicable as no party

13

was seeking an enforcement of a judgment.

For this reason, we find no error in the trial

court’s decision denying her motion to stay proceedings.
{f67} Accordingly, her fourth assignment of error is without merit.
{f68} Her fifth states:

{^70} Under her fifth assignment of error, Ms. Lloyd argues she only has to pay
$2.50 per page for transcripts, that she should get them

at cost, and that she is entitled
to $1,000 in damages. She raised these issues in Uo><d/and is prohilirted by res judicata
from again appealing them. See Grave, supra.
mi} Accordingly, her fifth assignment of error is without merit.
(1T72} Her sixth states:
{f73} £
The«slng
trial court
«, committed
assign an ^^££"£*£21
vWlonlS S?oSd“ S" atad "***“ "
{H74} Under her sixth assignment of error Ms. Lloyd argues she has

a right to
counsel under the 14th Amendment end claims the trial court erred by allowing her former
counsel, Attorney Hull, to withdraw his representation, mis court addressed both of these
alleged errors in Uoyd /, and Ms. Lloyd is barred by res judicata from
issue again here. Id.
{1175} Accordingly, her sixth assignment of error is without merit.
(1176) Her seventh states:

raising the same

ffl78} Under her seventh assignment of error, briefly Ms. Lloyd argues the trial
court by violating Portage County Loc.R. 8.03. However, as this court stated in Uoyd I,
Violations of Local Rules do not generally constitute grounds for
Thomsbery, 11th Dist. Portage No. 2019-P-0080,__ -Ohio-

reversal.” Uoyd v.

1f20, citing Cart v. Fed.

Natf. Mtge. Assoc., 11th Dist. Ashtabula No. 2011-A-0059,2012-Ohio-2241,

1149; Yoel v.

Yoel, 11th Dist. Lake No. 2009-L-063, 2012-Ohio-643, fi40; Allen v. Allen, 11th Dist.
Trumbull No. 2009-T-0070, 2010-0hio475, H29-33. Ms. Lloyd has offered no reason for
deviating from this standard.
{f79} Furthermore, insofar as Ms. Lloyd appeals the denial of her motions filed in
July 2019, this matter was discussed and resolved in Uoydi. Thus, she is prohibited by
res judicata from raising this issue again here. See Grava, supra. Insofar as Ms. Uoyd
appeals the denial of her motions made on September 9, 2019, we find no error in the
trial court’s denial of these motions as they were repetitive motions filed after the 28-day
deadline proscribed in the Ohio Rules of Civil Procedure. Civ.R. 59(B); Civ.R. 59(B)
{1J80} Accordingly, her seventh assignment of error is without merit.
{f8l} Her eighth states:
fl[82} The trial court committed reversible error and an abuse of discretion
by denying Uoyds Motion to strike Szabos Supplemental Citation in
Support of Attorneys fees.(T.d. 486)
(TO A trial court’s decision on a motion to strike is reviewed for abuse of
discretion. Hicks v. Cadle Co., 11th Dist. Trumbull No. 2014-T-0103, 2016-Ohio-4728,
H14. Under her eighth assignment of error Ms. Uoyd argues that Loc.R. 8.03 does.not
allow for supplemental filings and alleges the trial court erred by accepting this
supplemental citation. Preliminarily, however, as stated above, violations of Local Rules
do not generally constitute grounds for reversal.
15

ffl84} Moreover, we find no abuse of discretion

on the part of the trial court in

allowing this supplemental filing. On September 3, 2019, appellee-defendants, Michael
and Sandi Szabo, filed, through Attorney Molnar, a Supplemental Citation in Support of
Defendants' Motion for Attorney Fees and Related Expenses Pursuant to R.C. 2323.51.
The case they attached, Kriich, supra, had been decided on August 26,2019, subsequent
to the appellee-defendants' filing their initial motion for attorney fees on July 10,2019. As
there is no possible way the appellee-defendants could have cited Kriich in their initial
motion, and it was relevant authority from this district, we discern no error on the part of
the trial court in allowing the supplemental citation.
{f85} Accordingly, her eighth assignment of error is without merit.
fl[86} Her final assignment of error states:
{f87} The trial court committed reversible error and an abuse of discretion
by not swearing in the witnesses at October 18,2019 hearing.
(1188) Under her ninth assignment of error, Ms. Lloyd argues the trial court violated
Federal Rule of Evidence 603 by not swearing in witness at the October 18,2019 hearing.
The Federal Rules of Evidence are applicable in United States courts, that is federal
courts; Ms. Lloyd chose to bring suit in Ohio, under Ohio law. Accordingly, the Ohio Rules
of Evidence apply to this case, not the Federal Rules of Evidence. The Ohio Rules of
Evidence has an analogous provision: Evid.R. 603, which states “Before testifying, every

witness shall be required to declare that the witness will testify truthfully, by oath or
affirmation administered in a form calculated to awaken the witness’ conscience and
impress the witness’ mind with the duty to do so.”
{1f89} However, she has not filed in this court the transcript of the October 18,
2019 hearing. “The duty to provide a transcript for appellate review fells upon the

. y
16

appellant." Crawford v. Kirtland Local School Dist Bd.

of Education, 11th Dist. Lake No.

2018-L-010, 2018-Ohro-4569, 1J76, quoting Knapp

v. Edwards Laboratories, 61 Ohio
St.2d 197,199 (1980). “This is necessarfly so because an appellant bears the burden of
showing error by reference to matters in the

record." id. Without transcripts to review,

this court has no choice but to presume the validity of the lower court’s
proceedings and
affirm. Id.
{f90} Accordingly, her ninth assignment of error is without merit
{f91> In light of the foregoing, the judgments of the Portage County Court of
Common Pleas are affirmed. Defendant-appellee, Amanda Shuherk’s, motion for
dismissal is denied.
MARY JANE TRAPP, P.J.,
TIMOTHY P. CANNON, J.,

concur.

I

47C/tf

NOI/ 08 2019
IN THE COURT OF COMMON PLEAS
GENERAL DIVISION
PORTAGE COUNTY, OHIO
SUSAN LLOYD,

38&g&i

CASE NO. 2016 CV 230

Plaintiff,

JUDGE THOMAS J. POKORNY

V.

::

ORDER

JOSHUA THORNSBBRY, et aL,
Defendants.

This matter came before the Court upon the Motion of Defendants. Staci
;

Dalton Liddle, Tim Welme, Joshua Thomsbery, Phillip Siwierka, Eric Siwierka.
Jamie Leech Newman, Darrel Huber, Apryle Davis, Jason Ortman, Shelly
Ortman, Theresa Giaimo, Nick Balas, and Robert DiNatale (“Defendants’*), for
Sanctions against Plaintiff, Susan Lloyd (“Plaintiff*), pursuant to R.C. 2323.61
and Civ.R. 11. For the reasons that follow, based upon Defendants’ Motion,
Plaintiffs response, evidence and argument taken at hearings held on October
11, 2019 and October 18, 2019, and the Affidavit of Counsel attached as Exhibit
A, the Court finds the Motion well taken, and finds and orders as follows:
FINDINGS OF PACT
i

1. On March 16, 2016, Plaintiff filed a civil complaint. Plaintiff would go on
to amend her complaint several times throughout the litigation.
2. At various times in this litigation, Plaintiff has acted on her own behalf or
through legal counsel

:■

3. The matter proceeded to trial on June 17, 2019 and concluded with a jury
verdict in Defendants’ favor on June 21,2019.

i

\
i
i

,1 4

\V
I

>. •

\3

1 a^*s3saa2ss^^“-‘“--»
5. At tria1, Plaintiff called five (6) witnesses on direct examination and in
support olhercase.
i

8. Mm to the commencement of trial, Plaintiff identified dozens of exhibits
that she intended to present during her case.
7. Plaintiff did not seek to admit the vast majority of the disclosed exhibits.
8. Plaintiff knew, at the time of the disclosure of the witnesses that they
would net appear and testify, and failed to properly procure
'
them
testimony.
9. Plaintiff knew she did not possess all of the disclosed exhibits.
10. Despite being ordered by this Court to exchange all her exhibits to
Defendants counsel in the ton ifa which she would seek to introduce
them, Plaintiff defied that order.
n.Dtow opening statements, Pbdnriff frifed to comply with the Ohio Civil
mw* and did not state any claim&rrelief against all but six Defendants.
12.As a result, PlaintifPs claims against nearly all Defendants were
dismissed after counsel's opening statement.

f:

13. Plaintiffattempted to introduce original color photographs at trial despite
providing Defendants nothing more than blotched, black and white copies.
14. Plaintiff knew that the various records custodians necessary to
authenticate the disclosed exhibits would not appear^VOluntarily.
15. Plaintiff disclosed more than one-half dozen witnesses as experts.
16. Plaintiff knew those experts had not submitted expert reports, yet she
marked and identified documents as sham reports.
17. Plaintiff knew this Court had concluded discovery in March 2017 yet
submitted exhibits and sham expert reports not properly or timely
disclosed.
18. Plaintiff knew those exports would not voluntarily appear at trial, and
that she had: not paid them to testify, yet she disclosed the experts as
witnesses nonetheless.

2

J

With
Clerk tectonically, purported to ohow
servxfie at somefufcme date and time, and never properly undated those
records.
20. Plaintiff failed to enforoesubpoenaa upon her dfeolosed witnesses and did
not procure their attendance and testimony at trial.
21.BJ aigdoste* these withesaes, Plaintiff forced Defendants to prepare for
thdr anticipated testimony, to account for that anticipated testimony in
statement, and to prepare to cross^xatnine each of
22. When it became clear to Plaintiff that her authenticating witnesses would
itot appear for trial, she maintained the charade of having cognisable
daim»
a week-long jury trial when aha already knew she could
rfotprove bercase.
23. Several Defendants testified on October 11, 2019, that they have incurred
legal fees as a result of Plaintiffs conduct.
24. Defendants’ testimony at the October 11,2019 hearing was that the weeklong jury trial caused them to miss work, travel to attend trial, and incur
legal foes.
25. Plaintiff knew, or should have known, that her case had no merit, that she
could not prove her case, and that she had insufficient evidence to prove
her case.
26. Plaintiff presented no evidence at trial in support of most of her claimed
damages.
27. Plaintiff attempted to introduce false exhibits to one of her witnesses,
Arborist David Kennedy.
28. Plaintiff attempted to alter the expert report of one of her witnesses,
Arborist David Kennedy.
29. Plaintiff presented no evidence proving her medical conditions, and
Plaintiff presented no evidence establishing that any actions of
Defendants caused any of her medical conditions.
SO.After the conclusion of trial, Plaintiff has filed' approximately five dozen
options $nd ether documents which ah* knew, or should have known,
were frivolous, duplicative, and not-supported by existing law.
31. Before, during, and after the conclusion of the trial, Plaintiff filed dozens
of motions and other documents which included irrelevant information
3

\\£

*"d **1# m I^tttfte P*P**i ter filing.**™ designed only toharas.
and embarrass Defendants and otters, inoludingemployeea ofthfcCmttt
32-°®afite-l08ing at
Plaintiff oontinues to repeat her allegations in
public forums, and forced Defendants to seek to seal the record in this
CaS6«

33. The legal fees collectively incurred by Defondanta,.as of the date of this
Order, total $53,809.00, apd are broken down as foliows;
a.
b.
c.
d.

$34,809.00, to Flynn, Keith and Flynn
$2,600.00 to Williams, Kratcoeki, and Can
$2,600.00 to Ttt$ Reeves, Esq.
$14,000.00 to Mark Hanna, Esq,
CONCLUSION

1. Frivolous conduct is described in R.C. 2323.61(A)(2) as:
(a) Conduct of an inmate or other party to a civil action, of an inmate
who has filed an appeal of the type descrfoed in division (A)(1)(b) of
this section, or of the inmate's or other partes counsel of record that
satisfies any of the following;
(i) It obviously serves merely to harass or maliciously injure
another party to the civil action or appeal or is for another
improper purpose, including, but not limited to, causing
unnecessary delay or a needless increase in the cost of
litigation.
(ii) It is not warranted under existing law * cannot be
supported lay a good faith argument for an extension,
modification, or reversal of existing law, dr cannot be
supported by a good feith argument for the estabfiShmentof
new law.
(iii) Tha conduct consists of allegations or other faftfrwl
doateptibiw that have no evidentiary support or, if
m identified, are not likely to Imve evidentiary
support aid* a reasonable opportunity for tether
investigation ordiscovery.
Gy) The conduct consists of denials or foctual contentions
that to not warranted by the evidence dr, if ®p«dfically so
identified, are notreaaonably based on a lack of information
or belief

4

K
i

‘igpumE
I

the Conduct was frivolous, whether any party was advereelyeftected by it,
and (3) if an award is to be made; the amount of the awstL” R.C.
23EIM(B>(1); seeolse, Carbonev. Nueva Construction droup, L.L.C., 8fch

■

-5

h

i

V,

•n

2G09*Ohio-

3133, ^ 44,

■

4. A motion for sanctions on frivolous conduct is timely filed when it is filed
at any timO tiOt more than thirty days after the entry of final judgment in
a civil actionor appeal R.C. 2323.51(B)(1).
5. Defendants' motion is timely.

tl
•i

i
p

6, Regarding Plaintiffs claims for private* qualified nuisance, aha; was
req^ifred to prove that each Defendant engaged in the 'negligent
maintenance of a condition that creates an unreasonable risk of harm,
tfitimately ^sultihg in injury, which was real, material or substantial.
Hamilton p. Bibbs L.L.C,, 10th Dish Franklin No. 11AP-U07, 2012-Ohio*
4074, 14, 16.

!
i

f
;
:

■ s\

e

>•
>:

■>/

7. “Damages for nuisance may include diminution in the value of the
property, costs of repairs, loss of use of the property, and compensation for
annoyance, discomfort, and inconvenience." Id,, citing Widmer v. Fretti, 95
OhioApp. 7,16*17 (6th Dist.1952).

i

8. Plaintiff presented ho evidence to the jury which permitted the jury to find

iaity Ability for any Defendant under h&muiaaitee j^rary for xeoovery.
>*
; 4

*
.4

•{i
4-..

9. Skintiff pretfonted.no evidence to & jury which permitted the jury to find
W damages against arty Defendant muter her musettes theory of
reeqveityi
10, Regarding Plaintiffs claims for trespass, she was fequired to prove each
Deto^nt witimut authority or privilege, physically invades or unlawfully
enters the private premises of another whereby damagee directly ensue.”
Hayes v. Corrigan, 1* Dist. Hamilton Noe. 0*169554, 0-160630, 0*100641,
2017-Ohio-5867, U 11, citing R&R FtunUy Invests, v. Plastic JMoldings
Corp„ ist-Dist Hamilton N6; 0*160392,2016^Ohio-8126,

: :
j-;

4

5

in

l
5
t

11.Intentional conduct is an essential ©lament of trespass. Id., citing Merino
v. Sphm Banting Club, 7th Diet. Columbiana No. 07 CO 16, 2008-Oto6368,1144,
12. “An intentional tort occurs when the actor desires to cause consequences of
his act, or believes that the consequences are substantially certain to
result from it" Id.t citing .Robinson v. Cameron, 12th Dist. Butler No.
CA2014-09-191, 2015-Ohio*1486, K 12.
13. Plaintiff foiled to present any evidence that any Defendant trespassed
onto her property.
14. Plaintiff foiled to present any evidence that any Defendant intentionally
set foot on her projfe*|y.
16. Plaintiff foiled to present any evidence that any Defendant damaged her
property.
16.

&&&&&* destruction of timber claim, she was required to
prove that Sadi Defendant recklessly cut down, destroy, girdle, or
otherwise injure a vine, bush, shrub, sapling, tees, or crop standing or
growing on her land. Hayes at H16.

17. Plaintiff admitted she no longer owned the property upon which the
timber was allegedly cut.
18. Plaintiffs witnesses did not agree that the timber was on Plaintiffs former
property.
4

19. Plaintiff admitted she sold the property in question for more than she
purchased it.
20. Plaintiff foiled to present any evidence at trial that the destruction or
removal of any timber on her property resulted in a diminution of value.
21. Regarding Plaintiffs claim for defamation, she was required to prove five
elements: 1) a false statement, 2) about the plaintiff, 3) published without
privilege to a third party, 4) with fault or at least negligence on the part of
the Defendant, and 6) that was either defamatory per se or caused special
harm to the plaintiff. Pincus v. Pincus, 8**> Dist. Cuyahoga No. 100845,
2018-Ohio-5231, H 14, Am. Chem. Soc. v. Leadscope, Inc., 133 Ohio St.3d
366, 2012-0hio-4193, 978 N.E.2d 832, U 77.
22. Opinion statements are constitutionally protected speech.
v/i

23. Plaintiff failed to introduce evidence that any Defendant made a false
statement of fact about her, nor that the statement was defamatory per se
or caused special harm to her.
6

8

24,The evidence demonstrated that Plaintiffs
own conduct on social media
supported the truth of any statements, opinion or otherwise, that
any
Defendant made about her.
26. Hegardmg Plaintiffs claim of invasion of privacy/false light, Plaintiff was
required to prove that each Defendant gave publicity to a matter

SHfl* 1La! '%** *?.****

light, and Zt

dujregard aa to thefelsityofthe publicized
111 22'24- Cltin8 Restatement of Torts 2d, Sec.
28 F^ge-Ughi claims must contain aUegatione of several elements. First, the
statements must be alleged as untrue. Welling at H 52. Second, the
information must be publicized. Id. Publicity is not synonymous with
publication in a defamation claim. Id. at 1 63. Publicity requires that the
th!Tm»rtrtl0“ ^8de
pubUc at Urge-01 *0 K> many persons that
the matter must be regarded as substantially certain to become one of
public knowledge, id
27

• tOnr„OdJU0e a"y0vid6nce which proved any element of her
raise Ught claim; Defendants did nothing more than converse on a private
racebook page, and not befero the public at large.

28. To. the contrary, the evidence demonstrated that it was Plaintiff herself
who cast a light upon herself with posts in public forums.
29. With regard to Plaintiffs claim for

Lea^ndant owed her 8 duvo^MS)8Mi*

Franklin No. 10AP-B28,20ll-Ohio-1267, f 6.
30. A'duty'is an Obligation imposed by law on one person to act for the benefit
of another person due to the relationship between them. Hardy v. Hall, 2*
' *• ^

owed
32. Regarding Plaints claim for intentional infliction of emotional distress
nUlJ-w r8qUlred *° pr0VB <«
defendant intended to layette
extrema
,emotlonal <«f<MS8; (2) each defendant's conduct *
extreme and outrageous; and (3) each defendant's conduct was was
the
7

proximate cause of plaintiffs serious emotional distress. Phung v. Waste
Mgt, Inc,f 71 Ohio St.Sd 408, 410,1894-Ohio-389, 844 N.E.2d 286.
33. Plaintiff tailed to introduce any evidence to support any element of her
emotional distress claim.
34. Plaintiffs decision to take this action through a jury trial, and all her
subsequent filings, demonstrate that it served no legitimate purpose; she
zffiB&ht only to h&ass, annoy, and maliciously injurfe Defendants.
36. Defendants were collectively represented by one attorney, Jason Whitacre.
36. Whitacre charged his normal hourly rate of $250.00, allocated
proportionally amongst Defendants.
37. Whitacre has been practicing law for fifteen years in Ohio, and attorneys
reasonably charge $250.00 per hour to a single client.
38. Billing in 1/10^ hourly increments is a generally-accepted practice and
common amongst attorneys.
39. Fees totabi^j$63;809.00 for thirteen defendants in a civil action lasting
me?e than three years and culminating in a week-long jury total is
eminently reasonable under iheccitoumstanoes.
40. Plaintiffs conduct was frivolous under R.C. 2323,61.
41.Plaintiffs conduct caused actual harm to Defendants.
42. Plaintiffs conduct warrants a sanction against her in the full amount of
attorneys’ fees incurred by Defendants.
43. But for Plaintiffs unreasonable and unwarranted conduct, Defendants
would not have incurred the attorneys’ fees as they did.
Accordingly, pursuant to R.G. 2323.51, this Court orders that Plaintiff
Susan Lloyd, pay to Defendants, Staci Dalton Liddle, Tim Welins, Joshua
Thomsbery, Phillip Siwierka, Eric Siwierka, Jamie Lesch Newman, Darrel
Huber, Apryle Davis, Jason Ortraan, Shelly Ortman, Theresa Giaimo, Nick
Balas, and Robert DiNatale, jointly and severally, an award of attorneys’ fees in

8

'

the amount of $63,809.00.
This is a final, appealable order. No just cause for delay.

;:

IT IS SO ORDERED, ADJUDGED. AND DECREED,

r^j

JUDGE MQmSJ. POKORNY
(sitting by assignment)

:

cc: All Parties
<•

:
:
:

?

1

f

i

;
l

9
\

;•:

IN THE COURT OF COMMON PLEAS
PORTAGE COUNTY, OHIO

couiff ofcoKon PLEAS
NOV 08 2019

;v

SUSAN LLOYD
Plaintiff,

CASE NO.: 2016 CV 230
JUDGE THOMAS J. POKORNY
(sitting by assignment)

vs.
ORDER
JOSHUA THORNSBERY, et al.,
Defendant.

FINDINGS OF FACT
Michael and Sandi Szabo were named Defendants in the current action in the fourth
1.
amended complaint that was filed in 2017.
Before the trial commenced, Susan Lloyd failed to conduct depositions of Michael
2.
or Sandi Szabo to ascertain the meaning behind the Facebook messages that they posted.
A jury trial began on this case June 17, 2019 and resulted in a unanimous jury
3.
verdict in favor of Michael Szabo on June 21,2019. Sandi Szabo received a directed verdict in her
favor on June 17,2019.
4.

Both before and during trial, the Szabos denied each and every allegation against

them.
At trial, Susan Lloyd presented no evidence that Michael and Sandi Szabo were
5.
ever on her property or interfered with her enjoyment of her property.

•'V

Susan Lloyd has repeatedly insisted that Michael Szabo urinated on a fence around
6.
her property and damaged the fence. She presented no evidence to support this claim other than
Michael Szabo’s own Facebook posts that Michael Szabo has contended is a joke.
During the pendency ofthis case, Susan Lloyd brought a complaint against Michael
Szabo to the Ohio Civil Rights Commission. At this point and time, Susan Lloyd was on notice
that it was not Michael Szabo in the alleged photograph of a person urinating on Susan Lloyd’s
fence. Despite this learning this fact, Susan Lloyd continued to pursue her claims against Michael
Szabo.
7.

;
l

!
!

8.
Susan iQpy&only presented hw own testimony to establish herpsychic injury,
allegedly post-traumatic stress disorder paused by the ffeabobk posts made by E^adants She
did not present the testimony of any medical experts,
None of the medical records submitted by the Plaintiff referenced the Facebook
9.
posts as causing her injuries.
10.
inflictedcmotio^distressonh^™
CVM*nC#***MichacIorSzabo everintentionally
11.
Susan Lloyd presented no evidence that Michael or Sandi Szabo ever posted any
personal information belonging to her that cast her in a feise light.
12.

Susan Lloyd presented no evidence that Michael or Sandi Szabo ever made a false
statement about her. She only presented evidence that showed that Michael and Sandi Szabo had
a negative opinion of her.
4

13.

Michael and Sandi Szabo made a timely motion for frivolous conduct against Susan
Lloyd after the entry of final judgment in this case.
14.
After the trial, the Plaiotifffiled approximately 60 different documents in the forms
of various motions. Many of these motions were duplicitous. Many also
irrelevant
infomwtion that served no other putpose than to harass the Defendants, their
and
employees of this court
15.
The voluminous number ofStings by the Plaintiff has substantially increased the
cost of litigation for M&hafel and Sahft Szabo.
16.
After being denied emotion fora new trial, Susan Lloyd continued to file multiple
motions for a new trial without adequate legal basis for repeating those motions.
17.
Susan Lloyd filed multiple motions for sanctions against various Defendants; these
motions were not based on existing law and did not warrant a change in the law.
18.
Susan Lloyd has also continued to harass Michael and Sandi Szabo online
following the conclusion of this trial, asserting on multiple occasions that Michael Szabo was
engaged in conduct that formed the claims that Susan Lloyd presented at trial. These were the same
claims that the jury found unanimously in favor of Michael Szabo, not Susan Lloyd,on.

.< •
;

testimony that
had to frire the law firm

^

n*
^

Miehifcl and Saixli Szabo gave

r2

.r-.

20.

On October 18,2019, Attorney Perduk and Attorney Molnar submitted affidavits
to this court testifying that their hourly rates were $275 and $175 respectively, and as of that date,
Michael and Sandi Szabo’s bill with their firm for this matter totaled $39,761.25.
r

CONCLUSIONS OP LAW
21.

'*
!

V.

•/;

■!

Ohio Revised Code 2323.51(A)(2) defines frivolous conduct in pertinent part;
“(0 It obviously serves merely to harass or maliciously injure
another party to the civil action or appeal or is for another improper
purpose, including, but not limited to, causing unnecessary delay or
a needless increase in the cost of litigation.
(ii) It Is not warranted under existing law, cannot be supported
by a good faith argument for an extension, modification, or reversal
of existing law, or cannot be supported by a good faith argument for
the establishment of new law.
(iii) The conduct consists of allegations or other factual
contentions that have no evidentiary support, or, is specifically so
identified, are not likely to have evidentiary support after a
reasonable opportunity for further investigation or discovery.
(iv) The conduct consists of denials or factual contentions that
have no evidentiary support, or, if specifically so identified, are not
likely to have evidentiary support after a reasonable opportunity for
Anther investigation or discovery.”
R.C. 2323.51 (A)(2)(aXi) through (iv).

!

i

22.

R.C. 2323.51 uses an objective standard in determining whether sanctions may be
imposed for frivolous conduct Krlich v. Shelton, 11th Dist Trumbull No. 2018-T-0104, 2019Ohio-3441, H 41(11th Dist.). A finding offrivolous conduct under R.C. 2323.51 is decided without
inquiiy as to what the individual knew or believed. Id.
*
*.

23.
The motion for sanctions under the frivolous conduct statute was timely made by
the Szabos under 2323.51 (B)( 1),
24.

A party only heeds minimal evidentiary support of its allegations or focnial
contentions to avoid a frivolous conduct filing. Id, at ^ 42. Litigants who lacked evidence to prove
all elements of a tort at the time of the filing of a complaint have been found to have engaged in
frivolous conduct. Id. at $ 46.
25.
Whether the filing and prosecution of the lawsuit is frivolous requires an analysis
of the facts and legal elements of Trespass, Defamation, Intentional Infliction of Emotional
Distress, False Light - Invasion of Privacy.
26.
In Adamsv. Ptroa&Conen Invests., Ltd., the Eleventh Appellate District identified
the elements necessary to establish claims of Trespass. The Court held that a claim of Trespass

:

l

i

l

:
i

i
I

I

.V

>'

..V-

requires that a plaintiff show that a defendant without authority or privilege, physically invades or
unlawfully enters the private premises of another whereby damages directly ensue. 2010-Ohio33591J34.

:■»

-

►

••

. 27. ,

■ No evidence was ever presented at trial that Michael or Sandi Szabo ever'physically
trespassed on Susan Lloyd’s property, or trespassed on the property with noise or smoke.'
f

•v

28 . * In Kovacic v.Eastlake, the Eleventh Appellate District identified the elements
necessary to establish claims of Intentional Infliction of Emotional Distress. 11th Dist Lake No.
2005-L-205,2006-0hio*70t6,192. The Court held that a claim of RED requires that the plaintiff
mustshowthat: w
.
. v
- - .
a. Hie defendant intended to cause the plaintiff serious emotional distress.
b. . The defendant’s actions were extreme and outrageous as to go beyond
• <•
all possible bounds of decency and can be considered intolerable in a
civilized society.
c. The defendant’s actions were the proximate cause of the plaintiffs
psychic injury.
''
d. The defendant’s actions caused mental anguish that was so serious of
nature that no reasonable person would be expected to endure.
V

*:
V'
v*
•f:

T

T ’ -

f ...

.

.

,

29.
Susan Uoyd presented no evidence that Michael oir Sandi Szabo ever intended to
(®dtise her serious emotional distress. Additionally, the Facebook posts did not constitute extreme
and outrageous conduct that goes beyond all possible bounds of decency. While the Facebook
posts may have expressed negative opinions of Susan Lloyd, they do not arise to the level of
conduct necessary to pursue a claims of Intentional Infliction ofEmotional Distress. Finally, Susan
Lloyd presented no evidence to establish that the Facebook posts caused her severe emotional
distress. Therefore, Susan Lloyd's pursuit ofr.these claims against Michael and Sandi Szabo were
t 4
frivolous.
30.

*:•

■h

v

V

In Wellingv, Weinfeld, the Ohio Supreme Court, the elements necessary to establish
a claim of False Light - Invasion of Privacy. 113 Ohio St3d 464,2007-Ohio-245I, 855 N.E.2d
1051 (2007). The Court held that a defendant who gives publicity to a matter concerning another
that places the other before the public in a false light is subject to liability for the invasion of
privacy if:
a. The false light in which the other was placed would be highly offensive
to a reasonable person, and
b. The actor had knowledge of or acted in reckless disregard as to the
falsity of the publicized matter and the false light in which the other
would be placed.
31.
No evidence was presented at trial that demonstrated that Michael or Sandi Szabo
ever made a felse statement about Susan Lloyd. Again, while many of the Facebook posts
presentedMfch&el and Saftdi Szabo’s negative opinion of Susan Lloyd, the posts did not constitute
fldseliiifrnstt^bn:abdtii her.

\

1

1^

i«MUim nwrrriin----———**-"•

tt

•{Ig^ofoilsxn bfi£

.£f
$fti V&M

r>' a Lb 04M Kw#8 i>n# \x*bM *4 notagM *> te3 ftrit hK»*9B!
ssffii t* b«# Moitorr. aril % vosm aft stel ka»Ho *»< a* .*»«**»»«> sftl !o
OJ «8* awpuo «*» 0® tow**# notaitnctai ■*!■&■■«»» t.n#vstei * «UWM

*B9* wsMft y* nubnoa wriwra kS t»aW» frpU «w8 <**awain •w,J*®tec‘
• lo moo asij bswsrjn! ^wnaaMOB »«& W&ooa r.i S1#.*®®
gill TCft*

^n'

u^triw is'ibiM tuoicvrxS 8*b^oU nurt toimad aww od*s2ita8 b*«
., K,
*
i,x,9£2^>intfora* *ifi nl sJ?,03 fogs- sornwonr m& m

t

■ i-jbaoD iMOiws&art lo ytfc* oWO ni ta»»s»® note* 3* 3««sb«aoO
.,{tBes93®n fens ?idBfi0fefi3°J
sssV '(scftc&s 32s?&

Baeb^aa o) ®oto«8 W byoU wd »c»H »ft 03830*0

.euw! *> *«««* «0 « »*

« LToLtSo

h*»« din

amwym oak .oao^moK ,<s*mu « ?a \\
\{N\ .*
i— ii <y

s~.

IS

r-

’™YWK)X>niv8AM0HT SOOUl
(JasMttPgtew \4 galflW)

sssrfta*! UA

=Ll

•f .

--------------■<• ^1

Ml* Igni ||>

'A«*

Additional material
from this filing is
available in the
Clerk's Office.

